I
I

I
I

I

I

I

i

!

APPENDIX

1
f

i

l

t

!
I

J

la
APPENDIX A — JUDGMENT OF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, FILED MAY 13,2019
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2018-1892
KANEKA CORPORATION,
Plaintiff-Appellant,
v.
XIAMEN KINGDOMWAY GROUP COMPANY,
PACIFIC RAINBOW INTERNATIONAL INC.,
Defendants-Appellees,
MITSUBISHI GAS CHEMICAL COMPANY,
INC., MAYPRO INDUSTRIES, LLC, ZHEJIANG
MEDICINE CO., LTD., ZMC-USA L.L.C., MAYPRO
INDUSTRIES, INC., SHENZHOU BIOLOGY AND
TECHNOLOGY CO., LTD., SOJITZ CORPORATION
OF AMERICA, ROCHEM INTERNATIONAL, INC.,
Defendants.
Appeal from the United States District Court for the
Central District of California in No. 2:ll-cv-02389-SJOSS, Senior Judge James S. Otero.

2a
Appendix A
JUDGMENT
This Cause having been heard and considered, it is
Ordered and Adjudged:
Per Curiam (Reyna, Bryson, and Stoll, Circuit
Judges).
AFFIRMED. See Fed. Cir. R. 36.
Entered by Order of the Court
Mav 13. 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3a
APPENDIX B — FINAL JUDGMENT OF THE
UNITED STATES DISTRICT COURT FOR THE
CENTRAL DISTRICT OF CALIFORNIA, FILED
APRIL 20,2018
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CASE NO.: ll-cv-02389 SJO (SSx)
KANEKA CORPORATION,
A JAPANESE CORPORATION,
Plaintiff,
v.
XIAMEN KINGDOMWAY GROUP COMPANY, A
CHINESE CORPORATION, PACIFIC RAINBOW
INTERNATIONAL INC., A CALIFORNIA
CORPORATION, SHENZHOU BIOLOGY
& TECHNOLOGY CO., LTD., A CHINESE
CORPORATION, SOJITZ CORPORATION OF
AMERICA, A NEW YORK CORPORATION, AND
ROCHEM INTERNATIONAL, INC., A NEW YORK
CORPORATION,
Defendants.
Hon. S. James Otero
STIPULATED FINAL JUDGMENT OF NON­
INFRINGEMENT BY KANEKA CORPORATION

4a
Appendix B
Pretrial Conference: April 12,2018
Time: 9:00am
Trial Date: April 17,2018
Courtroom: 10C
FINAL JUDGMENT OF NON-INFRINGEMENT
Before the Court is the Stipulation For Entry Of Final
Judgment Of Non-Infringement filed by Plaintiff Kaneka
Corporation (“Kaneka”). Based on Kaneka’s stipulation,
and good cause appearing, Kaneka’s stipulation is
APPROVED and SO ORDERED. Accordingly, IT IS
HEREBY ORDERED, ADJUDGED AND DECREED
THAT:
1. Final Judgment of Non-Infringement of U.S.
Patent No. 7,910,340 is entered against Kaneka and for
declaratory judgment Defendants Xiamen Kingdomway
Group Company (“Kingdomway”) and Pacific Rainbow
International Inc. (“Pacific Rainbow”); and
2. All other claims, counterclaims, defenses, or
other matters which have been asserted (except for any
claim(s) or motion(s) relating to an “exceptional case”
determination pursuant to 35 U.S.C. § 285 or other bases
for the award of attorneys’ fees and/or costs, the timing of
which is governed by Fed. R. Civ. P. 54(d)(1) and (2), and
Fed. R. Civ. P. 58(e)) are hereby DISMISSED WITHOUT
PREJUDICE.
DATED: April 20,2018

By: IsL
Hon. S. James Otero
United States District Judge

5a
APPENDIX C — JUDGMENT OF THE UNITED
STATES DISTRICT COURT FOR THE CENTRAL
DISTRICT OF CALIFORNIA, FILED
APRIL 10, 2018
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CASE NO.: ll-cv-02389 SJO (SSx)
KANEKA CORPORATION,
A JAPANESE CORPORATION,

Plaintiff,
v.
XIAMEN KINGDOMWAY GROUP COMPANY, A
CHINESE CORPORATION, PACIFIC RAINBOW
INTERNATIONAL INC., A CALIFORNIA
CORPORATION, SHENZHOU BIOLOGY
& TECHNOLOGY CO., LTD., A CHINESE
CORPORATION, SOJITZ CORPORATION OF
AMERICA, A NEW YORK CORPORATION,
AND ROCHEM INTERNATIONAL, INC.,
A NEW YORK CORPORATION,
Defendants.
Hon. S. James Otero
Pretrial Conference: April 12,2018
Time: 9:00am
Trial Date: April 17,2018
Courtroom: 10C

6a
Appendix C
Plaintiff Kaneka Corporation (“Kaneka”), by and
through their undersigned counsel, hereby stipulates and
agrees, subject to the approval of the Court, as follows:
1. On March 22, 2011, Kaneka filed its original
Complaint for patent infringement against Defendants
Xiamen Kingdomway Group Co. (“Kingdomway”) and
Pacific Rainbow Int’l. Inc. (“Pacific Rainbow”) (collectively
“Defendants”) for infringing Kaneka’s U.S. Patent No.
7,910,340 (the “’340 Patent”). See Doc. 1, and as amended,
Docs. 220, 412, 420-1.
2. On April 13, 2011, April 14, 2011, and July 6, 2011,
Defendants answered Kaneka’s Complaint. See Docs. 13,
18 & 48, respectively, and as amended, Docs. 140, 238,
239, 427, 428.
3. On July 24, 2014, the Court issued its Claim
Construction Order (Doc. 155) construing the “70 mole
%” and “sealed tank”1 limitations of the ’340 Patent.
4. On June 10, 2015, the Court of Appeals for the
Federal Circuit reversed the District Court’s construction
of “sealed tank,”2 construed the “sealed tank” limitation to
mean “a tank that prevents exposure of the tank’s contents
1. Doc. 155 at 9 (“a tank that is closed to prevent the entry
or exit of materials.”)
2. The Federal Circuit also construed the “oxidizing
limitation” of the ’340 patent, but this limitation is not part of the
planned appeal as Defendants have withdrawn their position that
Kaneka must show a baseline rate for passive oxidation. Doc. 636.

7a
Appendix C
to the atmosphere,” and remanded the ease back to the
District Court. Kaneka Corp. v. Xiamen Kingdomway
Group Co., 790 F.3d 1298,1303-05 (Fed. Cir. 2015).
5. On September 16,2016, Kaneka filed its Amended
Patent Local Rule 3-1 (N.D. Cal) Disclosure of Asserted
Claims and Second Amended Final Infringement
Contentions (Doc. 518), asserting infringement of claims
22,33 and 36 of the ’340 Patent (“Asserted Claims”), and
identified Kingdomway’s “Old” and “New” manufacturing
processes for producing oxidized coenzyme Q10 as
infringing processes.
6. On December 19, 2016, Defendants moved for
summary judgment of non-infringement on both the
“sealed tank” and “70 mole %” limitations. Docs. 559 &
561-1.
7. On January 6, 2017, Defendants moved in limine
under Daubert and Fed. R. Evid. 702 to exclude Kaneka’s
July 2016 testing regarding the 70 mole% limitation in
Kingdomway’s manufacturing processes and Kaneka’s
expert witness’ (Dr. David Sherman) opinions relating to
the same. Doc. 598.
8. On February 22,2017, the Court issued its Minute
Entry Order (Doc. 696) (under seal) on pending Daubert
motions. Among other things, the Court held that a
“sealed tank” “must prevent exposure of its contents to
the atmosphere for the entire duration of the extraction
step, or else the contents of the tank could be exposed to
the atmosphere for at least a portion of the extraction

8a
Appendix C
step” Doc. 696 at 11. {emphasis added). The Court further
“PRECLUDE[D] the parties and their experts from
testifying or opining that extraction can be performed in
a ‘sealed tank’ even if the contents of the tank are exposed
to the atmosphere for a portion of the extraction step.” Id.
{emphasis in original).
9. In its February 22, 2017 Minute Entry Order
(Doc. 696), the Court also excluded “Kaneka’s July 2016
testing of whether [] XKGC’s manufacturing processes
practice the 70 mole % limitation” under Fed. R. Evid.
702, and “PRECLUDE[D] Kaneka and its witnesses from
testifying and offering opinions regarding the results of
their testing of the 70 mole % limitation.” Doc. 696 at 16
(emphasis in original). The Court further stated, “This
ruling does not, however, bar Kaneka from introducing
evidence or argument at trial regarding testing of
the 70 mole% performed by others, such as Shenzhou
and Chemir, using the Pharma Forensics Protocol as
Defendants have not demonstrated that the protocol, if
followed, is unreliable.” Doc. 696 at 16.
10. On September 1, 2017, Defendants filed a
supplemental brief (Doc. 767) in support of their summary
judgment motion. Doc. 559. Defendants’ supplemental
brief modified their original motion to a no-evidence
motion based upon the Court’s Minute Entry Order (Doc.
696) excluding Kaneka’s July 2016 testing.
11. On September 11, 2017, Kaneka responded to
Defendants’ supplemental brief (Doc. 767) and provided
evidence to validate its July 2016 testing. Doc. 770-1.

9a
Appendix C
12. On March 5, 2018, Kaneka moved the Court to
reconsider the additional limitations it placed upon the
Federal Circuit’s construction of “sealed tank.” Doc. 819.
13. On April 5,2018, the Court issued its Minute Entry
Order (Doc. 838) (under seal), which, among other things:
(1) denied Kaneka’s motion to reconsider the Court’s
construction of “sealed tank” (Doc. 838 at 41);
(2) maintained the Court’s construction of “sealed
tank” as a “tank to prevent exposure of its
contents to the atmosphere for the entire duration
of the extraction step” (Doc. 838 at 41), including
that:
(a) “While it does conclude that the tank must be
sealed during the entirety of the extraction
process, it requires only that the contents of
the tank not be exposed to the atmosphere—
not that the atmosphere be protected from
the contents of the tank” (Doc. 838 at 39);
(b) “the use of a seal pot or some other one-way
check valve that allows gas to escape the
container while the tank is being filled, but
does not allow atmospheric oxygen to enter,
is sufficient to render a tank ‘sealed’ for
purposes of the ’340 patent” (Doc. 838 at 39);
(c) “valves ‘close to prevent any potential
drawing in of atmospheric air exposed to the
hexane’” (Doc. 838 at 41);

10a
Appendix C
(d) “Exposing the tank’s contents to the
atmosphere at any point during the extraction
process would introduce oxygen into the tank
and thereby frustrate this goal [preventing
oxidation]” (Doc. 838 at 40);
(3) denied Defendants’ motion for summary
judgment regarding “sealed tank” for literal
infringing, stating:
(a) “On the present record, the Court cannot say
whether... XKGC’s old or new processes use
industrial extraction tanks subjected to the
continuous exchange of liquids and gases.”
(Doc. 838 at 42); and
(b) “XKGC’s new and old processes extract
CoQ10 in a ‘sealed tank’ because although
these processes include relief valves that can
expose the tank’s contents to the atmosphere,
XKGC’s SOP, coupled with the purpose of the
relief valve—to prevent the build-up of the
solvent hexane, which can create an explosion
if too pressurized—reveal that the valves
‘close to prevent any potential drawing in of
atmospheric air exposed to the hexane ...’”
(Doc. 838 at 41);
(4) granted Defendants’ motion for summary
judgment regarding “sealed tank” under the
doctrine of equivalents based upon its finding of
prosecution history estoppel (Doc. 838 at 42-44);

11a
Appendix C
(5) denied Kaneka’s request to reconsider (Doc.
770-1) the Court’s Fed. R. Evid. 702 exclusion of
Kaneka’s July 2016 testing (Doc. 696) (Doc. 838
at 37-38);
(6) denied Defendants’ motion for summary judgment
regarding “70 mole %” for Kingdomway’s “old
manufacturing process” (Doc. 838 at 36);
(7) granted Defendants’ motion for summary
judgment regarding “70 mole %” for Kingdomway’s
“new manufacturing process” “because Kaneka
has introduced no admissible evidence showing
there is a genuine dispute as to whether XKGC’s
new manufacturing process practices the 70 mole
% limitation.” (Doc. 838 at 38).
14. Subject to Plaintiff’s right to appeal on all issues
and grounds for appeal, Kaneka stipulates and agrees
that, in light of the Court’s Minute Entry Orders (Docs.
696 and 838), the Accused Methods of Producing Oxidized
Coenzyme Q10 have not infringed and currently do not
infringe the Asserted Claims of the ’340 Patent for at least
the following reasons:
(1) The Court’s modification and/or addition of
requirements to the Federal Circuit’s construction
of the “sealed tank” limitation; and
(2) The Court’s grant of Defendants’ no-evidence
summary judgment motion regarding the “70
. mole %” limitation with respect to Kingdomway’s

12a
Appendix C
new manufacturing process based upon the
Court’s exclusion of Kaneka’s July 2016 testing
and expert witness opinions.
15. Kaneka, therefore, stipulates to entry of a final
judgment that the Accused Methods have not infringed
and currently do not infringe the Asserted Claims of the
’340 Patent.
16. Kaneka further stipulates that the Court may
enter judgment of non-infringement as to the ’340 Patent
to conserve judicial resources and to avoid the time and
expense of further and duplicate litigation. Upon entry
of such judgment, Kaneka intends to appeal the Court’s
judgment of non-infringement.
17. Kaneka further stipulates that Rule 54(b)
authorizes a District Court to “direct entry of a final
judgment as to one or more, but fewer than all, claims... if
the court expressly determines that there is no just reason
for delay.” Fed. R. Civ. P. 54(b). In view of the Court’s
claim construction and preclusive evidentiary rulings,
as described above, and because the non-infringement
issue is separable from the remaining counterclaims, in
the interest of sound judicial administration, there is no
just reason for delaying the entry of final judgment of
non-infringement as to the ’340 patent, and final judgment
of non-infringement, subject to the Court’s approval, is
hereby requested pursuant to Fed. R. Civ. P. 54(b).
18. Kaneka stipulates to the dismissal without
prejudice of all other claims and defenses (except for

13a
Appendix C
any post judgment claim(s) or motion(s) relating to an
“exceptional case” determination pursuant to 35 U.S.C.
§ 285 or other bases for the award of attorneys’ fees and/
or costs, the timing of which is governed by Fed. R. Civ.
R 54(d)(1) and (2)), subject to Kaneka’s right to revive any
such claim, counterclaim, and/or defenses, in the event
of a remand from the Federal Circuit Court of Appeals.
19. Notwithstanding the foregoing, Kaneka specifically
objects to the Court’s construction of the phrases “sealed
tank” and “70 mole
and the Court’s exclusion of
Kaneka’s July 2016 testing evidence and Dr. David
Sherman’s expert opinions relating to the same. The
parties reserve their rights to challenge the construction
of these terms or any other construction of the disputed
claim terms on appeal. Kaneka reserves all appellate
rights arising from this action including, but not limited
to, the right to appeal the Minute Entry Orders (Docs.
696 and 838) and Order Regarding Claims Construction
(Doc. 155) to the United States Court of Appeals for the
Federal Circuit.
20. A proposed final judgment reflecting Kaneka’s
stipulation is submitted herewith.
IT IS SO STIPULATED.
DATED: April 10,2018

14a
Appendix C
Respectfully submitted,
By: /s/ Keith D. Nowak
Keith D. Nowak
CARTER LEDYARD & MILBURN
LLP
2 Wall Street
New York, NY 10005
Tel: (212) 732-3200
Fax: (212) 732-3232
nowak@clm.com
Adrian M. Pruetz
Rex Hwang
GLASER WEIL FINK HOWARD
AVCHEN & SHAPIRO LLP
10250 Constellation Boulevard, 19th
Floor
Los Angeles, California 90067
Tel: (310) 553-3000
Fax: (310) 556-2920
apruetz@glaserweil.com
rhwang@glaserweil.com
Robert M. Bowick Jr.
RALEY & BOWICK, LLP
1800 Augusta Drive, Ste. 300
Houston, Texas 77057
Tel: (713) 429-8050
Fax: (713) 429-8045
E-mail: rbowick@raleybowick.com
Attorneys for Plaintiff
KANEKA CORPORATION

15a
APPENDIX D — OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE CENTRAL
DISTRICT OF CALIFORNIA, DATED
APRIL 5, 2018
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CV11-02389 SJO (SHSx)
KANEKA CORP.
v.
ZHEJIANG MEDICINE CO., LTD. et al.
April 5,2018, Decided
April 5, 2018, Filed
PRESENT: THE HONORABLE S. JAMES OTERO,
UNITED STATES DISTRICT JUDGE.
CIVIL MINUTES - REDACTED
PROCEEDINGS (IN CHAMBERS): ORDER (1)
GRANTING IN PART AND DENYING IN PART
PLAINTIFF’S MOTION FOR PARTIAL SUMMARY
JUDGMENT ON DEFENDANTS’ CLAIMS OF
PATENT INVALIDITY UNDER 35 U.S.C. §§ 101,
102, & 112, H 2 [DOCKET NO. 556]; (2) GRANTING
IN PART AND DENYING IN PART DEFENDANTS’
MOTION FOR SUMMARY JUDGMENT AS
TO INVALIDITY AND NONINFRINGEMENT
OF U.S. PATENT NO. 7,910,340 [DOCKET NO.

16a
Appendix D
559]; (3) DENYING PLAINTIFF’S MOTION
FOR RECONSIDERATION OF THE COURT’S
MODIFICATION OF THE FEDERAL CIRCUIT’S
INTERPRETATION OF “SEALED TANK”
[DOCKET NO. 819]
This matter is before the Court on (1) Plaintiff Kaneka
Corporation’s (“Kaneka” or “Plaintiff”) Motion for Partial
Summary Judgment on Defendants’ Claims of Patent
Invalidity Under 35 U.S.C. §§ 101,102, & 112,112 (“Kaneka
Motion”); and (2) Defendants Shenzhou Biology and
Technology Co., Ltd. (“Shenzhou”), Xiamen Kingdomway
Group Company (“XKGC”), Pacific Rainbow International,
Inc. (“PRI”), Sojitz Corporation of America (“Sojitz”),
and Rochem International, Inc.’s (“Rochem”) Motion for
Summary Judgment as to Invalidity and Noninfringement
of U.S. Patent No. 7,910,340 (“Defendants’ Motion”), both
filed December 19, 2016. Defendants opposed Kaneka’s
Motion for Summary Judgment (“Def.’s- Opposition”)
and Kaneka opposed Defendants’ Motion for Summary
Judgment (“Kaneka Opposition”) on January 9,2017. The
parties filed reply briefs in support of their summary
judgment motions (“Kaneka Reply” and “Def.’s Reply,”
respectively) on January 16, 2017. On September 11,
2017, at the invitation of the Court, Plaintiff filed a
Supplemental Brief In Opposition to XKGC’s Motion for
Summary Judgment (“Pl.’s Supplemental Brief”) to which
Defendants responded (“Def.’s Supplemental Reply”)
on March 9, 2018. Also before the Court is Plaintiff’s
Motion for Reconsideration of the Court’s Modification
of the Federal Circuit’s Interpretation of “Sealed Tank”
(“Motion for Reconsideration”), filed March 5, 2018.

17a
Appendix D
Defendants opposed Kaneka’s Motion for Reconsideration
(“Def.’s Opp’n to Mot. For Reconsideration”) on March 9,
2018 and Kaneka filed its reply brief (“Pl.’s Reply ISO Mot.
For Reconsideration”) on March 13,2018. Since the filing
of the parties’ summary judgment motions, Plaintiff has
dismissed its claims with respect to all but two Defendants,
XKGC and PRI (together, the “Defendants”). The Court
found these matters suitable for disposition without oral
argument and vacated the hearing set for January 30,
2017. See Fed. R. Civ. P. 78(b). For the following reasons,
the Court GRANTS IN PART and DENIES IN PART
the Kaneka Motion and Defendants’ Motion and DENIES
Plaintiff’s Motion for Reconsideration.
I.

FACTUAL AND PROCEDURAL BACKGROUND
A. The ‘340 Patent

This is a patent infringement action involving U.S.
Patent No. 7,910,340 (the “‘340 Patent”), titled “Processes
for Producing Coenzyme Q1?.” Coenzyme Q10 (“CoQ10”)
exists in animal cells, which use CoQ10 to produce
adenosine triphosphate (“ATP”), which aids cellular
respiration. CoQ10 assists ATP production through redox
reactions, in which the coenzyme gives up and gains
electrons. Both oxidized and reduced CoQ10 are sold as
dietary supplements.
The ‘340 Patent, which is owned by Kaneka, contains
forty-five (45) process claims, of which four—claims 1,11,
22, and 33—are independent. {See Decl. Lei Mei in Supp.
Defs.’ Mot. for Summ. J. (“Mei Opening Deck”), Ex. A

18a
Appendix D
(“‘340 Patent”) col. 23,1. 55-col. 26,1. 65, ECF No. 559-2;
see also Defs.’ Statement of Genuine Disputes of Material
Fact in Response to PI. Kaneka Corp.’s Statement of
Uncontroverted Facts and Conclusions of Law (“Defs.’
Response”) 11 1, ECF No. 604-1.) Independent claim 22,
which is asserted against Defendants, recites:
A process for producing on an industrial scale
the oxidized coenzyme Q10 represented by
the following formula . . . which comprises
culturing reduced coenzyme Q10-producing
microorganisms in a culture medium containing
a carbon source, a nitrogen source, a phosphorous
source and a micronutrient to obtain microbial
cells containing reduced coenzyme Q10 at a ratio
of not less than 70 mole % among the entire
coenzymes Q10,
disrupting the microbial cells to obtain reduced
coenzyme Q10; and
oxidizing thus-obtained reduced coenzyme Q10
to oxidized coenzyme Q10 and then extracting
the oxidized coenzyme Q10 by an organic solvent
in a sealed tank.
(‘340 Patent col. 25,11.31-54.) Independent claim 33, which
is also asserted against Defendants, is identical to claim
1, except that (1) it does not contain a “disrupting” step;
and (2) the extraction step is recited before the oxidation
step. (‘340 Patent col. 26,11.13-36 [“extracting the reduced
coenzyme Q10 by an organic solvent in a sealed tank, and

19a
Appendix D
oxidizing the extracted reduced coenzyme Q10 to oxidized
coenzyme Q10.”].) Dependent claim 36, the final asserted
claim, recites “[t]he process according to claim 33, further
comprising disrupting the microbial cells.” (‘340 Patent
col. 26,11. 42-43.) Claims 22, 33, and 36 are collectively
referred to as the “asserted claims.”
B. The Defendants
XKGC and Shenzhou (the “Manufacturing
Defendants”) are" entities Kaneka accuses of directly
infringing the asserted claims. (See generally Second
Am. Compl. (“SAC”), ECF No. 412.) Defendants PRI,
Sojitz, and Rochem (the “Distributor Defendants”) are
distributors of CoQ10 produced by XKGC’s manufacturing
processes. (See, e.g., SAC 11 19.) They do not separately
move for summary judgment on any issue. (See generally
Defs.’ Mot., ECF No. 559.) After the motions for summary
judgment were filed, Kaneka settled its dispute with
Shenzhou, Sojitz, and Rochem.1
C. Procedural History
The procedural history of this case is long and
tortured. On March 22, 2011, Kaneka filed the instant
1. Of the Original Defendants, only XKGC and PRI remain as
defendants in the instant action. (See Order Re: Transfer, ECF No.
39; Order Severing and Transferring Claims, ECF No. 47; Stipulated
Settlement and Dismissal Order Between Kaneka and MGC, ECF
No. 154; Order of Dismissal Between Kaneka and Maypro, ECF
No. 287; Stipulated Settlement and Dismissal Between Kaneka and
Shenzhou, ECF No. 784; Stipulated Settlement and Dismissal of
Sojitz and Rochem, ECF No. 787.)

20a
Appendix D
action, which was initially assigned to Judge Mariana
R. Pfaelzer, asserting infringement of the ‘340 Patent
against XKGC, PRI, Shenzhou, Zhejiang Medicine
Co., Ltd. (“Zhejiang”), ZMC-USA, L.L.C. (“ZMC”),
Maypro Industries, Inc. (“Maypro”), and Mitsubishi Gas
Chemical Company, Inc. (“MGC”) (collectively, “Original
Defendants”). (See Compl., ECF No. 1.) One day earlier,
however, Zhejiang and ZMC filed a declaratory judgment
action with respect to the ‘340 Patent in the United States
District Court for the Southern District of Texas (the
“Texas Litigation”). See Compl., Zhejiang Med. Co. et al.
v. Kaneka Corp., No. 4:ll-cv-01052 (S.D. Tex. Mar. 21,
2011), ECF No. 1. On October 4, 2013, Kaneka filed an
Amended Complaint against the Original Defendants.
(See Am. Compl., ECF No. 220.) Defendants filed separate
Answers to the Amended Complaint on October 18,2013.
(See Answers to Am. Compl., ECF Nos. 238-240.)
On June 17,2011, Kaneka filed a Section 337 Petition
in the United States International Trade Commission
(“ITC”) involving the same claims of the ‘340 Patent. See
Certain Coenzyme Q10 Products and Methods of Making
Same, Inv. No. 337-TA-790, USITC Pub. 4407 (Sept. 27,
2012) (Final) (the “ITC Proceeding”). Judge Pfaelzer
stayed the instant action pending resolution of the ITC
proceeding. (Orders and Corrected Order re Stipulation
to Stay District Court Action, ECF Nos. 59-61.) The ITC
issued a decision finding no infringement by any of the
respondents. (See Joint Status Report, ECF No. 70.) The
parties stipulated that all discovery taken in the ITC
proceeding could be used in this case. (Joint Rule 26(f)
Report 9, ECF No. 92; Stip. Protective Order, ECF No.
97.)

21a
Appendix D
On February 7,2013, Judge Pfaelzer lifted the stay in
the instant action, (see Joint Status Report), and on July
24, 2013, issued a Claim Construction Order, construing
the following five terms:
Claim Term

Claim Construction

“inert gas atmosphere”

a gas atmosphere that is
free or substantially free of
oxygen and reactive gases”

“sealed tank”

“a tank that is closed to
prevent the entry or exit of
materials”

“culturing reduced
coenzyme Q10 producing
microganisms... to obtain
microbi cells containing
reduced coenzymeQ10 at
a ratio of not less than 70
mole % among the entire
coenzymes Q 0.”

“culturing reduced
coenzyme Q10 producing
microorganisms to obtain
microbial cells containing
reduced coenzyme Q10 at
a ratio of not less than 70
mole % among the entire
coenzymes Q10 at a time prior
to the extraction, oxidation,
or disruption steps and as
determined by the assay
described at col. 5, line 8 to
line 43, and Example 1 of the
‘340 Patent.”

22a
Appendix D
“oxidizing thus-obtained “actively converting all
reduced coenzyme Q10 to or substantially all of the
reduced coenzyme Q10
oxidized coenzyme Q10”
obtained from the disruption
step to oxidized coenzyme
Q10 in a step before beginning
the extraction step”
“oxidizing the extracted actively converting all
reduced coenzyme Q10 to or substantially all of
the extracted reduced
oxidized coenzyme Q 0”
coenzyme Q10 obtained
from the disruption step
to oxidized coenzyme Q10
in a separate step after the
extraction step has been
performed”
0See Claim Construction Order, ECF No. 155) Shortly
thereafter, on August 27,2013, XKGC, PRI, and Shenzhou
moved for summary judgment of noninfringement
based upon the Court’s constructions and discovery
taken in the ITC Proceeding. (Defs.’ Mots, for Summ.
J. as to Noninfringement, ECF Nos. 158, 188.) Kaneka,
meanwhile, moved for summary judgment with respect
to validity and to certain of XKGC’s counterclaims on
November 12, 2013. (Pl.’s Mots for Summ. J., ECF Nos.
265-266.)
Judge Pfaelzer granted in part XKGC, PRI, and
Shenzhou’s summary judgment motions on December

23a
Appendix D
6, 2013, finding that no genuine dispute of material
fact existed as to whether Movants’ “cell paste drying
step,” “biomass drying step,” and “alkali wash” practice
the limitations of the independent claims, or whether
Shenzhou’s process includes an oxidation step after the
extraction step as required by Claims 11 and 33. (Orders
Granting in Part Defs.’ Mots, for Summ. J., ECF Nos.
310-311.) On February 24, 2014, Judge Pfaelzer denied
Kaneka’s motion for summary judgment regarding
validity but granted its motion with respect to XKGC’s
third through ninth counterclaims. (Order Granting in
Part and Den. in Part Pl.’s Mots, for Summ. J., ECF Nos.
313-314.)
On March 27,2014, Judge Pfaelzer entered judgment
in favor of XKGC, PRI, and Shenzhou, and dismissed
without prejudice these defendants’ counterclaims for
declaratory judgment of invalidity and unenforceability.
(Judgment, ECF No. 322.) This judgment was appealed
by Kaneka to the United States Court of Appeals for
the Federal Circuit, which issued an opinion affirming
in part, vacating in part, and remanding the action to
the district court on June 10, 2015. See Kaneka Corp.
v. Xiamen Kingdomway Grp. Co., 790 F.3d 1298 (Fed.
Cir. 2015) (“Opinion”). In particular, the Federal Circuit
(1) upheld Judge Pfaelzer’s grant of summary judgment
of noninfringement of independent claims 1 and 11 and
dependent claims 8-9 and 19-20; and (2) vacated Judge
Pfaelzer’s grant of summary judgment of noninfringement
of independent claims 22 and 33 and associated depending
claims. See generally Opinion. With respect to the
latter conclusion, the Federal Circuit held (1) that Judge

24a
Appendix D
Pfaelzer’s construction of the term “sealed tank” conflicted
with the intrinsic record, and construed the term to mean
“a tank that prevents exposure of the tank’s contents to
the atmosphere,” id. at 1305; and (2) that the oxidizing
step “requires some action that results in oxidation but
does not require oxidation of ‘all or substantially all’ of
the coenzyme Q10,’” and that “it is not required that any
one step be carried out separately or independently of any
other step,” id. at 1307.
The instant action was remanded and subsequently
reassigned from Judge Pfaelzer to Judge Cristina A.
Snyder. (See Notice of Reassignment of Case, ECF
No. 354.) XKGC and PRI then filed a second motion for
summary judgment (“Second XKGC Motion”) on October
26, 2015. (See Mot. for Summ. J. as to Invalidity and
Noninfringement, ECF No. 355.) On January 6, 2016,
the parties consented to having the action referred to
the Patent Pilot Program (“PPP”) pursuant to General
Order No. 11-11. (Joint Notice of Consent to Referral to
the PPP, ECF No. 394.) On March 15, 2016, this Court
issued a minute order in which it (1) set a scheduling
conference; and (2) denied without prejudice the Second
XKGC Motion in light of the need for additional discovery
given the Federal Circuit’s construction of certain terms
and the passage of time. (See Order Setting Scheduling
Conference, ECF No. 399.) At the scheduling conference,
the Court imposed deadlines regarding the filing of
amended pleadings, the exchange of final infringement
and final invalidity contentions, and the filing of dispositive
motions. (See Minutes of Scheduling Conference, ECF
No. 405.)

25a
Appendix D
Kaneka filed its SAC on May 2, 2016, naming Sojitz
and Rochem as additional defendants. (See SAC.) On
September 16,2016, Kaneka served its final infringement
contentions on Defendants, asserting infringement of
claims 22,33, and 36. (See PL Kaneka Corp.’s Am. Patent
L.R. 3-1 (N.D. Cal) Disclosure of Asserted Claims and
Second Am., Final Infringement Contentions (“Kaneka’s
FICs”), ECF No. 518.) The parties’ cross-motions for
summary judgment followed.
On February 22, 2017, the Court ruled on three of
the parties’ four Daubert Motions, (1) denying Kaneka’s
Motion in Limine No. 1 to Preclude Admission of Portions
of the Expert Report and Testimony of Shirley Webster,
(2) granting-in-part and denying-in-part Kaneka’s Motion
in Limine No. 2 to Preclude Admission of Portions of
Reports on Defendants’ Infringement and Invalidity
Experts and Related Testimony, and (3) granting-in-part
and denying-in-part Defendants’ Motion in Limine No. 1 to
Exclude the Testimony of David Sherman, PhD. (Minute
Order (“Daubert Order”), ECF No. 696.) Following the
entry of this Order, but before the Court ruled on the
pending cross-motions for summary judgment, the parties
entered into a period of settlement negotiations during
which the action was stayed. On October 5,2017, Kaneka,
XKGC, and PRI informed the Court that they were unable
to reach a settlement and the Court set a trial date. (Joint
Motion for Pretrial Conference Date, ECF No. 780; Order
Granting Joint Motion, ECF No. 781.)

26a
Appendix D
II. LEGAL FRAMEWORK
A. Overview of the Parties’ Arguments
Defendants first move for summary judgment of
invalidity, contending (1) the asserted claims are indefinite
under 35 U.S.C. section 112112 (“Section 112112”) because
the ‘340 Patent does not teach, and persons skilled in the art
did not know, how to properly collect and handle samples
for testing the mole percentage; and (2) the asserted
claims are invalid under 35 U.S.C. section 101 (“Section
101”) for claiming a natural phenomenon combined with
conventional steps. {See Mem. of Ps & As in Supp. Defs.’
Mot (“Defs.’ Mem.”) 9-24, ECF No. 561-1.) Defendants
also move for summary judgment of noninfringement,
arguing no Defendant infringes any of the asserted
claims, either literally or under the doctrine of equivalents
(“DOE”), because (1) Defendants do not culture “reduced
coenzyme Q10-producing microorganisms,” which cannot
be photosynthetic bacteria; (2) Kaneka’s own test results
show XKGC does not produce reduced CoQ10 at a ratio of
“not less than 70 mole %” at the end of the “fermentation”
or “culturing” step; (3) Defendants do not use a “sealed
tank” during extraction; and (4) Defendants’ processes do
not perform an active “oxidizing” step prior to extraction.
{See Defs.’ Mem. 25-35.)
Kaneka, meanwhile, moves for summary judgment of
validity, arguing the asserted claims (1) are not indefinite
under Section 112112; (2) are patent-eligible under Section
101; and (3) are not anticipated by any of Defendants’ cited
prior art references under 35 U.S.C. section 102 (“Section

27a
Appendix D
102”). (See generally Mem. of Ps & As in Supp. Kaneka
Mot. (“KanekaMem”), ECF No. 556-1.)
B. Relevant Legal Standards
1.

Summary Judgment

Federal Rule of Civil Procedure 56(a) mandates that
“[t]he court shall grant summary judgment if the movant
shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a). The moving party bears the
initial burden of establishing the absence of a genuine
issue of material fact. See Celotex Corp. v. Catrett, 477
U.S. 317, 323, 106 S. Ct. 2548, 91 L. Ed. 2d 265 (1986).
“When the party moving for summary judgment would
bear the burden of proof at trial, it must come forward
with evidence which would entitle it to a directed verdict if
the evidence went uncontroverted at trial. In such a case,
the moving party has the initial burden of establishing the
absence of a genuine issue of fact on each issue material
to its case.” C.A.R. Transp. Brokerage Co. v. Darden
Rests., Inc., 213 F.3d 474, 480 (9th Cir. 2000) (citations
omitted). In contrast, when the nonmoving party bears
the burden of proving the claim or defense, the moving
party does not need to produce any evidence or prove the
absence of a genuine issue of material fact. See Celotex,
477 U.S. at 325. Rather, the moving party’s initial burden
“may be discharged by ‘showing’—that is, pointing out to
the district court—that there is an absence of evidence
to support the nonmoving party’s case.” Id. “Summary
judgment for a defendant is appropriate when the plaintiff

28a
Appendix D
‘fails to make a showing sufficient to establish the existence
of an element essential to [his] case, and on which [he] will
bear the burden of proof at trial.’” Cleveland v. Policy
Mgmt. Sys. Covp., 526 U.S. 795, 805-06,119 S. Ct. 1597,
143 L. Ed. 2d 966 (1999) (quoting Celotex, 477 U.S. at 322).
Once the moving party meets its initial burden, the
“party asserting that a fact cannot be or is genuinely
disputed must support the assertion.” Fed. R. Civ. R 56(c)
(1). “The mere existence of a scintilla of evidence in support
of the [nonmoving party]’s position will be insufficient;
there must be evidence on which the jury could reasonably
find for the [nonmoving party].” Anderson v. Liberty
Lobby, Inc., All U.S. 242,252,106 S. Ct. 2505,91L. Ed. 2d
202 (1986); accord Matsushita Elec. Indus. Co. v. Zenith
Radio Corp., 475 U.S. 574,586,106 S. Ct. 1348,89 L. Ed.
2d 538 (1986) (“[0]pponent must do more than simply show
that there is some metaphysical doubt as to the material
facts”). Further, “[o]nly disputes over facts that might
affect the outcome of the suit... will properly preclude
the entry of summary judgment [and f]actual disputes
that are irrelevant or unnecessary will not be counted.”
Liberty Lobby, All U.S. at 248. At the summary judgment
stage, a court does not make credibility determinations
or weigh conflicting evidence, see id. at 249. A court is
required to draw all inferences in a light most favorable
to the nonmoving party. Matsushita, 475 U.S. at 587.
2.

Definiteness Under Section 112 II 2 and
Nautilus v. Biosig

“The Patent Act requires that a patent specification
‘conclude with one or more claims particularly pointing

29a
Appendix D
out and distinctly claiming the subject matter which
the applicant regards as [the] invention.”’ Nautilus, Inc.
v. Biosig Instruments, Inc., 572 U.S. 898,134 S. Ct. 2120,
2124,189 L. Ed. 2d 37 (2014) (emphasis in original) (quoting
35 U.S.C. § 112, U 2 (2006 ed.)). In Nautilus, the United
States Supreme Court overturned the Federal Circuit’s
formulation that a patent claim passes muster under 35
U.S.C. § 112II2 (“Section 112II2”) so long as the claim is
“amenable to construction,” and the claim, as construed,
is not “insolubly ambiguous,” concluding that such a test
“does not satisfy the statute’s definiteness requirement.”
Id. (quoting Biosig Instruments, Inc. v. Nautilus, Inc.,
715 F.3d 891, 898-99 (Fed. Cir. 2013), judgment vacated,
572 U.S. 898,134 S. Ct. 2120,189 L. Ed. 2d 37).
Instead, the Supreme Court held that a patent is
invalid for indefiniteness “if its claims, read in light of the
specification delineating the patent, and the prosecution
history, fail to inform, with reasonable certainty, those
skilled in the art about the scope of the invention.” Id.
Definiteness is measured from the viewpoint of a person
skilled in the art at the time the patent was filed. Id. at
2128. The definiteness requirement must take into account
the inherent limitations of language, as “[sjome modicum
of uncertainty... is the ‘price of ensuring the appropriate
incentives for innovation.’” Id. (quoting Festo Corp. v.
Shoketsu Kinzoku Kogyo Kabushiki Co. CFesto VIII”),
535 U.S. 722,732,122 S. Ct. 1831,152 L. Ed. 2d 944 (2002)).
Notwithstanding these inherent limitations, “a claim is
indefinite if its language ‘might mean several different
things and no informed and confident choice is available
among the contending definitions.’” Media Rights Techs.,

30a
Appendix D
Inc. v. Capital One Fin. Corp., 800 F.3d 1366,1371 (Fed.
Cir. 2015) (quoting Nautilus, 134 S. Ct. at 2130 n.8).
Indefiniteness is a question of law that may be decided
at the summary judgment stage. TevaPharms. USA, Inc.
v. Sandoz, Inc., 789 F.3d 1335,1341 (Fed. Cir. 2015); Eidos
Display, LLCv. AU Optronics Corp., 779 F.3d 1360,1364
(Fed. Cir. 2015).
3.

Patent-Eligibility Under Section 101

“Section 101 defines the subject matter that may be
patented under the Patent Act.” Bilski v. Kappos, 561 U.S.
593,601,130 S. Ct. 3218,177 L. Ed. 2d 792 (2010). Section
101 reads in its entirety: “Whoever invents or discovers
any new and useful process, machine, manufacture, or
composition of matter, or any new and useful improvement
thereof, may obtain a patent therefor, subject to the
conditions and requirements of this title.” 35 U.S.C. § 101.
“Section 101 thus specifies four independent categories of
inventions or discoveries that are eligible for protection:
processes, machines, manufactures, and compositions of
matter.” Bilski, 561 U.S. at 601.
Although acknowledging that “[i]n choosing such
expansive terms ... Congress plainly contemplated that
the patent laws would be given wide scope,” the Supreme
Court long ago identified three exceptions to Section
101: “laws of nature, physical phenomena, and abstract
ideas.” Diamond v. Chakrabarty, 447 U.S. 303, 308-09,
100 S. Ct. 2204, 65 L. Ed. 2d 144 (1980). Although these
exceptions are not required by the statutory text, they

31a
Appendix D
are consistent with the idea that certain discoveries “are
part of the storehouse of knowledge of all men” and are
“free to all men and reserved exclusively to none.” Funk
Bros. Seed Co. v. Kalo Inoculant Co., 333 U.S. 127,130,
68 S. Ct. 440, 92 L. Ed. 588,1948 Dec. Comm’r Pat. 671
(1948). Thus, “the concern that drives this exclusionary
principle [is] one of pre-emption.” Alice Corp. Pty. Ltd. v.
CLS Bank Int’l, 134 S. Ct. 2347, 2354, 82 L. Ed. 2d 296,
189 L. Ed. 2d 296 (2014). Consequently, the Supreme Court
has required that “[i]f there is to be invention from such a
discovery, it must come from the application of the law of
nature to a new and useful end.” Funk Bros., 333 U.S. at
130. These principles have been held to apply with equal
force to product and process claims. Gottschalk v. Benson,
409 U.S. 63, 67-68, 93 S. Ct. 253,34 L. Ed. 2d 273 (1972).
The Supreme Court has articulated a two-part test
for distinguishing patents that claim one of the patentineligible exceptions from those that claim patent-eligible
applications of those concepts. See Alice, 134 S. Ct. at
2354. “Step one asks whether the claim is ‘directed to one
of [the] patent-ineligible concepts.’” Rapid Litig. Mgmt.
Ltd. v. CellzDirect, Inc., 827 F.3d 1042, 1047 (Fed. Cir.
2016) (quoting Alice, 134 S. Ct. at 2354). “If the answer
is no, the inquiry is over: the claim falls within the ambit
of § 101.” Id. “If the answer is yes, the inquiry moves to
step two, which asks whether, considered both individually
and as an ordered combination, ‘the additional elements
“transform the nature of the claim” into a patent-eligible
application.’” Id. (quoting Alice, 134 S. Ct. at 2354). Step
two is described “as a search for an ‘inventive concept.’”
Alice, 134 S. Ct. at 2354 (quoting Mayo Collaborative

32a
Appendix D
Servs. v. Prometheus Labs, Inc., 566 U.S. 66, 72,132 S.
Ct. 1289, 182 L. Ed. 2d 321 (2012)). “At step two, more
is required than ‘well-understood, routine, conventional
activity already engaged in by the scientific community,’
which fails to transform the claim into ‘significantly
more than a patent upon the’ ineligible concept itself.”
CellzDirect, 827 F.3d at 1047 (quoting Mayo, 566 U.S. at
73). “While patent eligibility is ultimately a question of
law ... [w]hether something is well-understood, routine,
and conventional to a skill artisan at the time of the patent
is a factual determination.” Berkheimer v. HP, Inc., 881
F.3d 1360,1369 (Fed. Cir. 2018).
4.

Anticipation and Section 102(b)’s Public
Use/On-Sale Bar

Under 35 U.S.C. Section 102(a) (“Section 102(a)”),
“[a] person shall be entitled to a patent unless . . . the
claimed invention was patented, described in a printed
publication, or in public use, on sale, or otherwise available
to the public before the effective filing date of the claimed
invention. . . .” 35 U.S.C. § 102(a)(1). “It is well settled
that a claim is anticipated if each and every limitation is
found either expressly or inherently in a single prior art
reference.” Celeritas Techs., Ltd. v. Rockwell Int’l Corp.,
150 F.3d 1354, 1361 (Fed. Cir. 1998) (citing Structural
Rubber Prods. Co. v. Park Rubber Co., 749 F.2d 707, 715
(Fed. Cir. 1984)).
Under 35 U.S.C. Section 102(b) (“Section 102(b)”), “[a]
person shall be entitled to a patent unless... the invention
was in public use or on sale in this country, more than one

33a
Appendix D
year prior to the date of the application for patent in the
United States... .” 35 U.S.C. § 102(b). “When the asserted
basis of invalidity is a public use or on-sale bar, the court
should determine ‘whether the subject of the barring
activity met each of the limitations of the claim, and thus
was an embodiment of the claimed invention.”’ Dana Corp.
v. Am. Axle & Mfg., Inc., 279 F.3d 1372,1375-76 (Fed. Cir.
2002) (citing Scaltech Inc. v. Retec/Tetra, L.L.C., 178 F.3d
1378,1383 (Fed. Cir. 1999)); see also In re Crish, 393 F.3d
1253,1256 (Fed. Cir. 2004).
5.

Literal Infringement

“An infringement analysis entails two steps. The
first step is determining the meaning and scope of the
patent claims asserted to be infringed. The second
step is comparing the properly construed claims to the
device accused of infringing.” Markman v. Westview
Instruments, Inc,, 52 F.3d 967, 976 (Fed. Cir. 1995) (en
banc), affd, 517 U.S. 370,116 S. Ct. 1384, 134 L. Ed. 2d
577 (1996). “To establish liability for direct infringement
of a claimed method or process under 35 U.S.C. § 271(a),
a patentee must prove that each and every step of the
method or process was performed.” Move, Inc. v. Real
Estate Alliance Ltd., 709 F.3d 1117,1122 (Fed. Cir. 2013)
(citing Akamai Techs., Inc. v. Limelight Networks, Inc.,
692 F.3d 1301,1307 (Fed. Cir. 2012) (en banc)). To establish
literal infringement of a process claim, the enumerated
steps must “all be practiced as recited in the claim ...”
Dippin’ Dots, Inc. v. Mosey, 476 F.3d 1337, 1343 (Fed.
Cir. 2007). “[A]ny deviation from the claim precludes a
finding of literal infringement.’” Jardin v. Datallegro,

34a
Appendix D
Inc., No. 08-CV-1462-IEG (WVG), 2011 U.S. Dist. LEXIS
36665, 2011 WL 1311732, at *3 (quoting Litton Sys. Inc.
v. Honeywell, Inc., 140 F.3d 1449, 1454 (Fed. Cir. 1998),
abrogated by Festo Corp. v. Shoketsu Kinzoku Kogyo
Kabushiki Co. ', Ltd., 234 F.3d 558 (2000)).
The patentee bears the ultimate burden of proving
infringement by a preponderance of the evidence, see
Warner-Lambert Co. v. TevaPharms. USA, Inc., 418 F.3d
1326,1341 n.15 (Fed. Cir. 2005), and as a result, summary
judgment of noninfringement requires a showing by the
accused infringer that “no reasonable jury could have
found infringement on the undisputed facts or when all
reasonable factual inferences are drawn in favor of the
patentee,” Netword, LLCv. Centraal Corp., 242 F.3d 1347,
1353 (Fed. Cir. 2001).
6.

Infringement Under the “Doctrine of
Equivalents”

A process that does not literally infringe a patent
claim may nevertheless be found to infringe under the
“doctrine of equivalents.” See Duramed Pharms., Inc. v.
Paddock Labs., Inc., 644 F.3d 1376,1380 (Fed. Cir. 2011).
“To find infringement under the doctrine of equivalents,
any differences between the claimed invention and
the accused product must be insubstantial.” Brilliant
Instruments, Inc. v. GuideTech, LLC, 707 F.3d 1342,1346
(Fed. Cir. 2013) (citing Graver Tank & Mfg. Co. v. Linde
Air Prods. Co., 339 U.S. 605,608,70 S. Ct. 854,94 L. Ed.
1097, 1950 Dec. Comm’r Pat. 597 (1950)). “One way of
proving infringement under the doctrine of equivalents is

35a
Appendix D
to show, for each claim limitation, that the accused product
‘performs substantially the same function in substantially
the same way with substantially the same result as each
claim limitation of the patented product.’” Id. at 1347
(quoting Crown Packaging Tech., Inc. v. Rexam Beverage
Can Co., 559 F.3d 1308,1312 (Fed. Cir. 2009)). This is a
question of fact. Id. (citations omitted).
The DOE contains a number of inherent limitations.
For example, “[i]f the claimed and accused elements are
recognized by those of skill in the art to be opposing ways
of doing something, they are likely not insubstantially
different.” Id. at 1347-48. Moreover, “the doctrine of
prosecution history estoppel prevents a patent owner from
recapturing through the doctrine of equivalents subject
matter surrendered to acquire the patent.” Duramed,
644 F.3d at 1380. If the patentee narrowed the scope of
the asserted patent’s claims in response to a prior art
rejection, a presumption of prosecution history estoppel
applies, which may be rebutted by showing, inter alia,
- the “alleged equivalent would have been ‘unforeseeable
at the time of the amendment and thus beyond a fair
interpretation of what was surrendered.’” Festo Corp.
v. Shoketsu Kinzoku Kogyo Kabushiki Co. {“Festo IX”),
344 F.3d 1359, 1369 (Fed. Cir. 2003) (quoting Festo
VIII, 535 U.S. at 738). This is commonly referred to as
“argument-based estoppel.” See Conoco, Inc. v. Energy
& Envtl. Inti, L.C., 460 F.3d 1349,1363 (Fed. Cir. 2006).
Similarly, a patentee’s argument to the patent examiner
distinguishing a claim from the prior art—referred to as
“amendment-based estoppel”—can curtail the application
of the DOE. Id.

36a
Appendix D
III. DISCUSSION
A. Whether the “70 Mole %” Limitation Is
Indefinite Under Section 112 H 2
1.

The Parties’ Arguments

Defendants first contention is that “culturing” step
recited in the asserted claims—’’culturing reduced
coenzyme Q10 producing microorganisms ... to obtain
microbial cells containing reduced coenzyme Q10 at a ratio
of not less than 70 mole % among the entire coenzymes Q10”
(the “70 mole % limitation”)—is indefinite under Section
112 H 2 and Nautilus. (Defs.’ Mem. 9-16.) In particular,
Defendants contend the record makes clear that those
skilled in the art, such as the parties’ technical experts, did
not know, with reasonable certainty, how the molarity of
the pre-extracted sample should be measured during the
ITC Proceeding. (Defs.’ Mem. 10-12.) The parties agree
that measurement of the mole % ratio requires several
steps—first collecting a sample, then handling (e.g.,
storing) the sample, and finally testing the sample. (<See
Kaneka’s Response to Defs.’ Statement of Uncontroverted
Facts and Conclusions of Law (“Kaneka’s Response”)
1113, ECF No. 608-1.) Defendants argue that although the
‘340 Patent identifies a preferred testing method in the
specification, it is silent as to how the sample should be
collected and handled before being tested in a lab, and
submit that the parties’ experts’ disagreements regarding
how to collect and handle samples during the ITC
Proceeding highlight the indefiniteness of this limitation.
( Defs.’ Mem. 10-12.) In particular, Defendants point to

37a
Appendix D
language in the Claim Construction Order indicating that,
during the ITC proceeding, “[e]ach party argued that the
other party’s method of testing [molarity] was erroneous,”
supporting the conclusion that those skilled in the art did
not know the scope of the asserted claims with reasonable
certainty. (Defs.’ Mem. 11-12 [citing Claim Construction
Order at pgs. 12,12 n.3].)
Kaneka, in turn, contends that Defendants should
be barred, both procedurally and as a matter of law,
from arguing the 70 mole % limitation is indefinite,
characterizing this effort as “an improper request for
reconsideration of this court’s Markman ruling.” (Kaneka
Mem. 8.) Kaneka further submits that Defendants’ own
experts testified before the ITC that a person of ordinary
skill in the art would understand the proper methods of
sample collection, preservation, and testing, and therefore
Kaneka should be entitled to summary judgment on this
issue. (Kaneka Mem. 10-12.)
2.

The Challenged 70 Mole % Claim
Limitation

In her Claim Construction Order, Judge Pfaelzer
construed the 70 mole % limitation as follows:
culturing reduced coenzyme Q]0 producing
microorganisms to obtain microbial cells
containing reduced coenzyme Q10 at a ratio
of not less than 70 mole % among the
entire coenzymes Q at a time prior to the
extraction, oxidation, or disruption steps

38a
Appendix D
and as determined by the assay described at
col. 5, line 8 to line 43, and Example 1 of the
‘340 Patent.
(Claim Construction Order 13 [emphasis added].) In
construing the 70 mole % limitation in this manner, Judge
Pfaelzer noted that “any requirement as to the timing
of the mole percent determination or the method of mole
percent determination must be considered carefully and
incorporated [into the claims from the specification] only
if justified from the claim itself.” (Id. at 11 [emphasis
added].) She then found that although the “claims do not
explicitly state a timing requirement for the mole percent
determination..., due to the structure of the claims, there
is an implicit limitation ... [that] requires that the steps
be performed in the order listed,” and therefore “the mole
percent of reduced CoQ10 must be determined at a time
prior to the execution of any of the subsequent steps of
the claims.” (Id. at 11-12.)
Judge Pfaelzer further noted that although the claims
“do not explicitly state a specific method of testing
to determine the percent of the reduced CoQ10,” the
method of testing is “critical... to the determination
of infringement.” (Id. at 12 [emphasis added].) Judge
Pfaelzer then acknowledged that the 70 mole % limitation
was not construed in the ITC proceeding, and found that
Kaneka’s position taken during claim construction that no
construction of the term is necessary would “leave[ ] the
claim so ambiguous that a person of ordinary skill in the
art at the time of the invention could not understand it.”
(Id. at 12-13.) Judge Pfaelzer “resolve[d] this ambiguity” by

39a
Appendix D
taking guidance from the specification, which “provides a
‘demonstrated’ method to ‘standardize’ the determination
of the ratio of reduced CoQ10.” (Id. at 13.) In taking such
guidance, Judge Pfaelzer expressly relied on the Federal
Circuit’s decision in Biosig. (Id. at 13.) Judge Pfaelzer did
not find the 70 mole % limitation to be indefinite in her
Claim Construction Order.
As noted above, however, the Supreme Court vacated
the Federal Circuit’s decision in Biosig approximately one
year after Judge Pfaelzer issued her Claim Construction
Order, expressly overturning the Federal Circuit’s
“insolubly ambiguous” standard and fashioning a new
test that asks whether the claims, “read in light of the
specification delineating the patent, and the prosecution
history, fail to inform, with reasonable certainty, those
skilled in the art about the scope of the invention.” Nautilus,
134 S. Ct. at 2124. Thus, the question the Court must
decide is whether the 70 mole % limitation, as construed
by Judge Pfaelzer in her Claim Construction Order, when
read in light of the specification and prosecution history,
fails to inform, with reasonable certainty, those skilled in
the art about the scope of the invention.
3.

The ITC Proceedings

The parties do not genuinely dispute that the following
events occurred during the ITC proceeding. First,
each party’s expert2 admitted the amount of oxygen
2. The parties do not dispute that the experts who testified
during the ITC proceeding are persons of ordinary skill in the art.

40a
Appendix D
available to the cells during storage affects the ratio of ■
reduced CoQ10 in a sample. (Mei Opening Decl., Ex. N
(“ALJ Decision”) at 227, ECF No. 561-3.) Moreover, a
microorganism’s ability to metabolize oxygen was found to
vary depending on whether samples were refrigerated or
frozen, as evidenced by Kaneka’s expert’s testimony that
although microorganisms continue to metabolize oxygen
when refrigerated, “freezing causes microorganisms’
metabolisms to slow greatly, or even go into a resting
state.” (ALJ Decision 228.) In fact, Kaneka’s expert tested
the impact of these two storage methods, and concluded
that “after one to one and one-half days of refrigeration,”
70.5% reduced CoQ10 was found in samples, while the
amount of reduced CoQ10 found in samples frozen during
this same time period varied between 61.30% and 64.63%.
(ALJ Decision 228-229.)
How long a sample was stored prior to measurement
was also found to impact the molarity of reduced CoQ10
in the samples. Kaneka’s expert testified that the results
from tests performed “on a refrigerated sample shortly
after sampling” and a second test performed 30 days
later “showed an increase from 70.5% reduced [CoQ10]
to over 90% reduced [CoQ10] over those 30 days.” (ALJ
Decision 228.) Moreover, Shenzhou conducted duplicative
testing on its own refrigerated samples, finding that a
mid-culture sample taken 63 hours into fermentation
from its fermentation tanks contained 68% reduced
CoQ10. (ALJ Decision 229.) Shenzhou’s test results were
challenged by Kaneka, which argued to the ALJ that
a “single mid-culture sample” cannot be used to show
noninfringement. (ALJ Decision 229.) The ALJ rejected

41a
Appendix D
this argument, noting that Kaneka relied upon the same
sample point—63 hours, which Kaneka’s expert captioned
“Late Fermentation”—to show infringement. (ALJ
Decision 229.)
4.

The Federal Circuit’s Opinions in Dow,
Teva, and Honeywell

Defendants principally rely on three Federal
Circuit opinions in support of their indefiniteness
arguments: (1) Dow Chemical Co. v. Nova Chemicals
Corp. (Canada) (“Dow”), 803 F.3d 620 (Fed. Cir. 2015);
(2) Teva Pharmaceuticals USA, Inc. v. Sandoz, Inc.
(“Teva”), 789 F.3d 1335 (Fed. Cir. 2015); and (3) Honeywell
International, Inc. v. International Trade Commission
(“Honeywell”), 341 F.3d 1332 (Fed. Cir. 2003). (See Defs’
Mem. 9-17.) A careful review of these decisions is critical
to resolving the parties’ definiteness dispute.
In Dow, the Federal Circuit found the claim term
“slope of strain hardening coefficient” indefinite in light
of (1) a lack of guidance in the claims, specification, and
prosecution history as to how a person of ordinary skill
in the art should calculate this coefficient; and (2) the
fact that the patentee’s own expert’s “chosen method” for
calculating this coefficient “was not even an established
method but rather one developed for this particular
case.” Dow, 803 F.3d at 634-35. In Dow, the patentee’s
expert testified at trial that “one of ordinary skill in the
art would know that the slope of the hardening curve
would have to be measured at its maximal value.” Id.
at 633 (emphasis added). “[TJhree methods existed to

42a
Appendix D
determine the maximum slope,” however, which each
provided “a different way of determining the maximum
slope.” Id. Moreover, the patentee’s expert “developed yet
another method—of his own invention—to calculate the
slope of strain hardening.” Id. The Federal Circuit noted
that “[bjecause the methods do not always produce the
same results, the method chosen for calculating the slope
of strain hardening could affect whether or not a given
product infringes the claims.” Id. at 634.
In Dow, the Federal Circuit compared the facts in the
case before it to those in another decision, Teva, which
had issued just two months earlier. Dow, 803 F.3d at 63435. In Teva, the challenged claim limitation recited the
term “molecular weight,” but three relevant measures
for molecular weight were known to exist—namely,
peak average molecular weight (“Mp”), number average
molecular weight (“Mn”), and weight average molecular
weight (“Mw”)—where each was calculated in a different
manner and each typically had a different value. Teva,
789 F.3d at 1338. The Federal Circuit looked to “the
patent record—the claims, specification, and prosecution
history—to ascertain if they convey to one of skill in the
art with reasonable certainty the scope of the invention
claimed.” Id. at 1341. The court found that neither the
claims nor the specification contained an explicit definition
of molecular weight, and also noted that the prosecution
history contained inconsistent statements. Id. at 134245. The court therefore concluded that the claims were
indefinite under Nautilus, notwithstanding the patentee’s
expert’s testimony that someone skilled in the art could
determine which method was the most appropriate. Id. at
1338,1341,1344-45.

43a
Appendix D
Finally, in Honeywell, the Federal Circuit upheld
a finding that the claim term “melting point elevation”
(“MPE”) was indefinite under the pre-Nautilus “insolubly
ambiguous” standard, where neither the patent’s written
description nor the prior art disclosed a particular
method for how to prepare a polyethylene terephthalate
(“PET”) yarn sample. 341 F.3d at 1337, 1340-42. Three
unpublished methods of PET yarn sample preparation
existed in the literature at the time the patent was filed,
and a fourth, unpublished method was advanced by the
plaintiffs expert. Id. According to the court, “because
the sample preparation method is critical to discerning
whether a PET yarn has been produced by the claimed
process, knowing the proper sample preparation method
is necessary to practice the invention.” Id. at 1340.
5.

Analysis

Whether the 70 mole % limitation is indefinite in
light of the ‘340 Patent’s silence with respect to sample
collection and handling is, like the concentration of
reduced CoQ10, difficult to reliably ascertain. Indeed, the
answer to this inquiry appears to lie at the intersection
of two related, but somewhat conflicting, notions. First,
“[a] claim is indefinite if its legal scope is not clear enough
that a person of ordinary skill in the art could determine
whether a particular composition infringes or not.”
Geneva Pharms., Inc. v. GlaxoSmithKline PLC, 349
F.3d 1373,1384 (Fed. Cir. 2003). That said, “[t]he test for
indefiniteness does not depend on a potential infringer’s
ability to ascertain the nature of its own accused product
to determine infringement, but instead on whether

44a
Appendix D
the claim delineates to a skilled artisan the bounds of
the invention.” SmithKline Beecham Corp. v. Apotex
Corp., 403 F.3d 1331, 1340-41 (Fed. Cir. 2005). Because
a genuine dispute exists as to whether persons of skill in
the art in 2001, after reading the claims, specification,
and prosecution history of the ‘340 Patent, would have
understood how to properly collect and handle a sample
of cultured microorganisms, the Court cannot grant
summary judgment on the issue of definiteness in favor
of either party, and DENIES both Motions with respect
to this issue.
The proceedings before the ITC and discovery taken in
this action make clear that sample collection and handling
are critical to determining whether a given sample
accurately reflects the ratio of reduced CoQ10 among the
entire coenzymes Q10 inside the fermentation tank after
culturing reduced CoQ10-producing microorganisms on
an industrial scale. Thus, here, as in Honeywell, “because
the sample preparation method is critical to discerning
whether [oxidized CoQ10] has been produced by the
claimed process, knowing the proper sample preparation
method is necessary to practice the invention.” 341 F.3d
at 1340. The ‘340 Patent is similar to the patent at issue
in Honeywell in a second respect: “the claims, the written
description, and the prosecution history fail to give [the
Court], as the interpreter of the claim term, any guidance
as to what one of ordinary skill in the art would interpret
the claim to require.” Id. None of these pieces of intrinsic
evidence reveal, however, how a sample should be collected
or handled prior to testing the sample using the assaying
method described between lines 8 and 43 of column 5 and
in Example 1 of the ‘340 Patent.

45a
Appendix D.
According to Kaneka, that the ‘340 Patent does not
describe sample collection and handling methods is not
fatal to the 70 mole % limitation, as experts on both sides
agree that persons of skill in the art knew, even in 2001,
that in order to accurately measure the ratio of reduced
CoQ10 in a sample the metabolic activity of the cells in
that sample would need to be immediately halted, and
that several methods of halting such metabolic activity
were known to exist. In particular, Kaneka argues that
“[w]ith respect to the collection and preservation issue
(pre-testing), [Defendants’ expert on invalidity (Dr.
Spormann) and Shenzhou’s expert on noninfringement
(Dr. Lievense) testified that a person of ordinary skill
in the art of the ‘340 [P]atent would know the proper
methods of sample collection, preservation and testing.”
(Kaneka Mem. 10.) Defendants respond by arguing the
cited testimony is taken “out of context,” and point to
additional testimony indicating that one skilled in the
art would need to know the “variabilities” within the
microorganism and the conditions “that this compound
is subject to” in order to take an accurate sample. (See
Kaneka Opp’n 8-9.) Defendants also argue that “Kaneka’s
cited testimony does not establish that one skilled in
the art would know how to stop metabolic activity of the
microorganisms ‘within a second.’” (Kaneka Opp’n 9.)
Based on the testimony of both parties’ experts, the
Court finds that a person of ordinary skill in the art in
2001 would have understood the need to immediately
stop the metabolic activity of the reduced CoQ10-producing
microorganisms in order to obtain accurate test results,
and also finds that several methods for stopping a

46a
Appendix D
microorganism’s metabolic activity were known at that
time. Defendants’ invalidity expert, Dr. Alfred Spormann,
testified that in 2001, a person of ordinary skill in the art
would have understood, even without reading the ‘340
Patent, that he or she should “immediately” refrigerate
or freeze a sample to obtain the best test results, because
“the purpose of the refrigeration or the freezing is to stop
metabolic activity.” (Decl. Robert M. Bowick in Supp.
Defs.’ Opp’n (“Bowick Opp’n Decl.”), Ex. 3 at 112:17-113:20,
ECF No. 608-5.) Similarly, Shenzhou’s noninfringement
expert, Dr. Jefferson C. Lievense, testified that freezing
would be one of several options to “immediate[ly] stop[ ]
metabolic activity,” and that he “would look for guidance
from the literature in selecting candidate methods to do
that.” (Bowick Opp’n Decl., Ex. 4 at 128:7-13, ECF No.
608-6.) Dr. Lievense further testified that “[i]n the case
of freezing, the sample would go directly into a container,
which would be placed in liquid nitrogen[,]” and that “if
the volume is small enough, the time it takes to do that
could be on the order of one second.” (Bowick Opp’n Deck,
Ex. 4 at 129:8-18.) Moreover, Dr. Lievense testified that
other methods of immediately stopping metabolic activity
would include “immediately add[ing] acid” or “add[ing]
some sort of solvent or solvent mixture.” (Id.) Finally,
Kaneka’s expert, Dr. David H. Sherman, testified that,
in his own research, he either freezes or adds solvents to
“essentially immediately” kill all the cells that have been
fermented. (Bowick Opp’n Deck, Ex. 5 at 20:5-8,23:10-15,
ECF No. 608-7.)
In light of the above-cited expert testimony, the Court
finds there to be no dispute that persons of skill in the art

47a
Appendix D
in 2001 both (1) understood the importance of immediately
stopping a microorganism’s metabolic activity in order
to obtain an accurate sample; and (2) knew that several
methods—including freezing, refrigeration, and adding .
acid or solvents—existed to quickly stop a microorganism’s
metabolic activity. What is genuinely disputed, however,
is whether persons of skill in the art, after reading the
claims, specification, and prosecution history of the ‘340
Patent, would have known, with reasonable certainty,
which of these methods could be used to collect and store
samples in order to practice this limitation. Similarly,
there is a genuine dispute regarding the duration samples
can be stored prior to testing using the assaying method
described in the specification of the ‘340 Patent.
Takeda Pharmaceutical Co. v. Zydus Pharmaceutical
USA, Inc., a decision from the Federal Circuit decided
prior to Nautilus, is instructive. In Takeda, the defendant
argued the asserted Patent was indefinite because it did
not specify the method of measurement that should be used
to determine average particle diameter, which the claims
required to be less than or equal to 400 micrometers. 743
F.3d 1359,1366 (Fed. Cir. 2014). The defendant insisted
several methods existed that could potentially be used
to take that measurement, and that the sample could
either be infringing or non-infringing depending on the
measurement technique used. Id. Thus, according to the
defendant, “the skilled artisan has no way to determine
whether his or her product infringes the [ ] patent based
on the information provided in the specification.” Id.
The Federal Circuit disagreed, noting that although
“evidence from both parties’ experts [showed] there

48a
Appendix D
are several possible ways to measure average particle
diameter” and although the “experts agreed that different
measurement techniques could indeed produce different
results,” the claims were not indefinite, both because “the
evidence established that both methods of measurement
accurately report average particle diameter” and because
“there is no evidence that the differences between
these techniques are in fact significant^]” Id. at 1366-67
(emphasis in original). “[IJndeed, there was no evidence
in this case that different measurement techniques in
fact produced significantly different results for the same
sample.” Id. at 1367. “Any theoretical minor differences
between the two techniques are therefore insufficient to
render the patent invalid.” Id. (citing PPG Indus., Inc. v.
Guardian Indus. Corp., 75 F.3d 1558,1563 (Fed. Cir. 1996),
which found no indefiniteness despite failure to specify
which method should be used to measure ultraviolet
transmittance because all conventional methods produced
“essentially identical results”).
The court in Takeda distinguished Honeywell, on
which Defendants rely, noting that in that case, “[bjecause
the specification did not discuss which sample preparation
method should be used, and the particular method chosen
was ‘critical to discerning whether [an infringing yarn]
has been produced by the claimed process,’ we affirmed
the Commission’s conclusion that the claims were
indefinite.” Id. at 1367 n. 4 (quoting Honeywell, 341 F.3d
at 1340). “Here, by contrast, no extensive manipulation
of the samples is required prior to measurement, and,
as discussed above, [the defendant] did not present clear
and convincing evidence that the method of measurement

49a
Appendix D
is in fact outcome-determinative in the infringement
analysis.” Id.
The same distinction can be drawn in this case.
Although Defendants have presented evidence obtained
during the ITC Proceedings showing that refrigerating
or freezing samples for different durations can lead
to different mole % measurements and ratios, it is far
from clear whether these differences are “outcomedeterminative” when samples are refrigerated or frozen
“immediately” and stored for an appropriate period of
time, as determined by a person of ordinary skill in the
art. It is for the trier of fact to determine what sample
collection and handling methods a person of skill in the
art would have understood to be appropriate given the
claims, specification, and prosecution history of the ‘340
Patent. Neither party has demonstrated that there are
no genuine disputes as to this issue.
In light of the above, the Court finds Teva and Dow
to be distinguishable. In Teva, the claims required that a
copolymer have a specific molecular weight “of about 5 to 9
kiladaltons,” which could be calculated using one of three
known measurement methods. 789 F.3d at 1338. Unlike
the ‘340 Patent, none of these measurement methods were
disclosed in the Teva patent, and thus a person of ordinary
skill in the art would not have known which method to use
in order to arrive at the claimed molecular weight. Id. at
1341,1344-45. This was critical, because each of the three
known measurement methods yielded different results.
Id. at 1338. As noted above, however, Defendants have
not shown that different sample collection and handling

f

50a
Appendix D
methods understood by persons of skill in the art to be
appropriate would yield different mole % ratios. Teva is
therefore inapposite.
In Dow, which was an appeal from a bench trial, the
asserted claims required a “slope of strain hardening
coefficient greater or equal to 1.3,” which could be
calculated using one of four measurement methods. 803
F.3d at 622, 624-27. The Dow patents, unlike the ‘340
Patent, failed to disclose any of these measurement
methods, and the Federal Circuit noted that “[t]here is
no question that each of these four methods may produce
different results.” Id. at 633. Indeed, the Federal Circuit
noted that “[bjecause the methods do not always produce
the same results, the method chosen for calculating the
slope of strain hardening could affect whether or not a
given product infringes the claims.” Id. at 634. Because
the Dow patents failed to disclose which method of
measurement should be used, the Federal Circuit held that
a person of ordinary skill in the art would not know which
method to use in order to arrive at the claimed coefficient.
Id. at 635. Here again, by contrast, Defendants have
not shown that different sample collection and handling
methods understood by persons of skill in the art to be
appropriate would yield different mole % ratios, and Dow
is therefore distinguishable.
The Court also rejects Defendants’ argument that
the 70 mole % limitation must be indefinite because (1)
Kaneka’s own expert, Dr. Sherman, found that the testing
of the mole % ratio by a co-inventor of the ‘340 Patent
was not reliable in light of a lack of description regarding

51a
Appendix D
how the samples were handled between harvesting and
testing; or (2) Kaneka failed to follow its own “mobile
laboratory” protocol upon remand from the Federal
Circuit. (Cf. Defs.’ Mem. 10-14.) First, that a particular
test conducted by one of the ‘340 Patent’s co-inventors
either was unsuccessful or used unclear or improper
methods does not demonstrate that persons of skill in the
art were unaware of how to properly collect and handle
cell samples, and Defendants cite no authority indicating
- otherwise. Second, the fact that a party has developed a
particular protocol for proving whether a defendant has
committed infringement does not, by itself, indicate that
persons of skill in the art were previously incapable of
understanding how to accurately test a sample. Such an
inference is particularly difficult to draw where, as here, it
appears that the need to create such a “mobile laboratory”
arose because of the remoteness of XKGC and Shenzhou’s
facilities and because these defendants did not permit
Kaneka to test samples at their facilities. To the extent
Defendants challenge the accuracy and reliability of the
“mobile laboratory” method itself, such an argument
concerns infringement, rather than indefiniteness. (Cf.
Defs.’ Mem. 13-14.)
The Court also finds occasion to recite the bedrock
principle of patent law that a claim is not indefinite
merely because it is difficult to determine whether one’s
own product infringes, for this difficulty may lie in the
inadequacy of testing procedures rather than imprecision
in the claim language. See Spansion, Inc. v. Int’l Trade
Comm’n, 629 F.3d 1331, 1346 (Fed. Cir. 2010) (“The
difficulty or complexity of the infringement analysis

52a
Appendix D
does not necessarily speak to whether a claim is definite
or not.”); SmithKline Beecham Corp. v. Apotex Corp.,
403 F.3d 1331, 1340-41 (Fed. Cir. 2005) (“The test for
indefiniteness does not depend on a potential infringer’s
ability to ascertain the nature of its own accused product
to determine infringement, but instead on whether the
claim delineates to a skilled artisan the bounds of the
invention”). For example, in Invitrogen Corp. v. Biocrest
Manufacturing, L.P., the Federal Circuit affirmed
the district court’s summary judgment finding that a
claim reciting the term “improved competence” was not
indefinite, rejecting the accused infringer’s argument that
because testing was required to know whether a product
infringed, the claim should be considered to be indefinite.
424 F.3d 1374,1384 (Fed. Cir. 2005). The Federal Circuit
wrote:.
Stratagene further argues that it would have
had to practice the claimed process in order
to determine if it was infringing, even though
“[t]he primary purpose of the definiteness
requirement is to ensure that the claims are
written in such a way . . . that interested
members of the public . . . can determine
whether or not they infringe.” Oakley, Inc.
v. Sunglass Hut Int’l, 316 F.3d 1331, 1340
(Fed. Cir. 2003). Indeed, the lower court had
to have separate side-by-side tests done to
determine whether Stratagene infringed,
and other testimony indicates that tests
were necessary to determine infringement.
However, Oakley goes on to explain that “a

53a
Appendix D
patentee need not define his invention with
mathematical precision in order to comply
with the definiteness requirement.” Id. at 1341.
Stratagene is really talking about the difficulty
of avoiding infringement, not indefiniteness
of the claim. “The test for indefiniteness does
not depend on a potential infringer’s ability
to ascertain the nature of its own accused
product to determine infringement, but
instead on whether the claim delineates to a
skilled artisan the bounds of the invention.”
SmithKline Beecham Corp. v. Apotex Corp.,
403 F.3d 1331, 1341 (Fed. Cir. 2005). This
court’s and the district court’s constructions of
the claim showed that it contained no material
ambiguities, and therefore was not invalid for
indefiniteness. See All Dental Prodx, LLC v.
Advantage Dental Prods., Inc., 309 F.3d 774,
780 (Fed. Cir. 2002).
Invitrogen, 424 F.3d at 1384 (emphasis added). Thus, to
the extent the parties’ definiteness arguments turn on the
tests performed on samples taken from Manufacturing
Defendants’ fermentation tanks, the Court cautions that
methods used to determine whether Manufacturing
Defendants’ processes practice the 70 mole % limitation
are not necessarily indicative of whether a person of skill
in the art in 2001 would have understood the scope of this
limitation.
For the foregoing reasons, the Court DENIES
both Kaneka’s and Defendants’ Motions for Summary

54a
Appendix D
Judgment on the issue of whether the asserted claims are
indefinite under Section 112112.
B. Whether the Asserted Claims Are PatentEligible Under Section 101
Defendants next contend that the asserted claims
are invalid under Section 101 for claiming a natural
phenomenon combined with conventional steps. (Defs.’
Mem. 17-24.) In particular, Defendants argue that
because microorganisms are able to produce microbial
cells containing “not less than 70 mole %” reduced CoQ10
and because the 70 mole % limitation is merely identified,
the asserted claims are directed to a patent-ineligible
natural phenomenon very similar to that at issue in Mayo
Collaborative Services v. Prometheus Laboratories, Inc.
(See Defs.’ Mem. 17-18.)
Kaneka responds that the asserted claims are
patent-eligible because the inventors did not stop at
identifying certain microorganisms with the ability to
produce reduced CoQ10 at ratios greater than 70 mole %
under specific culturing conditions, but instead used this
knowledge to create a new and useful method of producing
oxidized CoQ10 on an industrial scale. (See Kaneka Mem.
12-20.) Kaneka points out that PTO examiners noted that
a process of culturing microorganisms to produce greater
than 70 mole % reduced CoQ10 and then actively oxidizing
the resulting culture was neither routine nor conventional,
and that the patented process yields the specific benefit
of creating oxidized CoQ10 with greater purity without
(Z)-isomers and (all-E) isomers. (Kaneka Mem. 19-20.)

55a
Appendix D
For the reasons that follow, the Court agrees with
Kaneka that the asserted claims are patent-eligible under
35 U.S.C. Section 101. The Court therefore GRANTS
Kaneka’s Motion for Summary Judgment on this issue,
and DENIES Defendants’ Motion.
1.

Step 1: Whether the Claims Are “Directed
to” a Natural Phenomenon

“We begin with step one: whether the claims here are
‘directed to’ a patent-ineligible concept.” CellzDirect, 827
F.3d at 1047. The Court concludes that they are not.
The asserted claims recite a “process for producing
on an industrial scale the oxidized coenzyme Q10.” (‘340
Patent col. 25,11.32-33; col. 26,11.13-14 [emphasis added].)
The claimed processes require an artisan to carry out
several steps to achieve the desired production, including
(1) culturing reduced CoQ10-producing microorganisms in
a specific culture medium; (2) optionally disrupting the
microorganisms; (3) actively oxidizing the reduced CoQ10;
and (4) extracting the CoQ10 with an organic solvent in a
sealed tank. The end result of this process, according to
the ‘340 Patent, is oxidized CoQ10 of a high purity produced
“safely and efficiently on the industrial scale.” (‘340 Patent
col. 3,11. 33-35; col. 4,11. 28-36.) Thus, according to the
‘340 Patent, the claimed process “achieved a notable
advance over prior art techniques” for creating highpurity oxidized CoQ10 on an industrial scale. CellzDirect,
827 F.3d at 1047.
Notwithstanding that the plain claim language
refers to producing oxidized CoQ10 on an industrial scale,

56a
Appendix D
Defendants contend that the asserted claims are “directed
to” the natural phenomenon that certain microorganisms
have the natural ability to produce at least 70 mole %
reduced CoQ10 under standardized culturing conditions.
0See Defs.’ Mem. 18 [citing ‘340 Patent col. 4,11. 61-65].)
According to Defendants, because the 70 mole % limitation
discussed at length in Section 111(A), supra, is “merely
identified,” the asserted claims are directed to the natural
ability of these microorganisms to produce at least-70 mole
% reduced CoQ10. (Defs.’ Mem. 18-20.)
The parties correctly note that CellzDirect is
particularly instructive. In CellzDirect, the Federal
Circuit found claims reciting a “method of producing a
•desired preparation of multi-cryopreserved hepatocytes,”
coupled with several concrete steps,3 to be patent-eligible
because the claims were not “directed to” the natural
phenomenon that hepatocytes are capable of surviving
multiple freeze-thaw cycles. 827 F.3d at 1047-50. The
Federal Circuit distinguished these claims from those
found to be patent-ineligible in Mayo, Association for ,
Molecular Pathology v. Myriad Genetics, Inc. (“Myriad”),
569 U.S. 576, 133 S. Ct. 2107, 186 L. Ed. 2d 124 (2013),
Genetic Technologies, Ltd. v. Merial L.L.C. (“Genetic
Technologies”), 818 F.3d 1369 (Fed. Cir. 2016), Ariosa
3. These steps include (1) “performing density gradient
fractionation on a set of previously frozen and thawed cells to
separate out the viable ones;” (2) “recovering the separated viable
cells;” and (3) “cryopreserving the recovered cells.” 827 F.3d at
1047. A dependent claim required “the additional step of pooling
hepatocytes from multiple donors,” which was unconventional. Id.
at 1049.

57a
Appendix D
Diagnostics, Inc. v. Sequenom, Inc. (“Ariosa”), 788 F.3d
1371 (Fed. Cir. 2015), and In re BRCA1-& BRCA2-Based
Hereditary Cancer Test Patent Litigation (“In re BRCA”),
774 F.3d 755 (Fed. Cir. 2014) because “the end result of
the [asserted] claims is not simply an observation or
detection of the ability of hepatocytes to survive multiple
freeze-thaw cycles,” but were instead “directed to a new
and useful method ofpreserving hepatocyte cells.” Id.
at 1048 (emphasis added). According to the court:
Through the recited steps, the patented
invention achieves a better way of preserving
hepatocytes. The ‘929 patent claims are like
thousands of others that recite processes
to achieve a desired outcome, e.g., methods
of producing things, or methods of treating
disease. That one way of describing the process
is to describe the natural ability of the subject
matter to undergo the process does not make
the claim “directed to” that natural ability. If
that were so, we would find patent-ineligible
methods of, say, producing a new compound (as
directed to the individual components’ ability to
combine to form the new compound), treating
cancer with chemotherapy (as directed to
cancer cells’ inability to survive chemotherapy),
or treating headaches with aspirin (as directed
to the human body’s natural response to
aspirin).
Id: at 1048-49 (emphasis in original). The Federal Circuit
went on to distinguish the claims before it from those at

58a
Appendix D
issue in Funk Brothers. Co. v. Kalo Inoculant Co., 333 U.S.
127,68 S. Ct. 440,92 L. Ed. 588,1948 Dec. Comm’r Pat. 671
(1948), by noting that “Funk Bros, involved product claims,
and the court explicitly noted that it was not ‘presented
[with] the question whether the methods of selecting and
testing the non-inhibitive strains are patentable.” Id. at
1049 (citing Funk Bros., 333 U.S. at 130). Thus, “[h]ere,
regardless of whether the individual hepatocytes in the
pool of multi-cryopreserved hepatocytes have the same
effect they always had or perform in their natural way,
the claims are directed to a new and useful process of
creating that pool, not to the pool itself.” Id.
The Federal Circuit distinguished the claims before
it from those at issue in Myriad and Ariosa on similar
grounds. First, in Myriad, the Supreme Court stated that
It is important to note what is not implicated
by this decision. First, there are no method
claims before this Court. Had Myriad created
an innovative method of manipulating genes
while searching for the BRCA1 and BRCA2
genes, it could have possibly sought a method
patent. But the processes used by Myriad to
isolate DNA were well understood ... and are
not at issue in this case.
569 U.S. 576,133 S. Ct. 2107, 2119-20,186 L. Ed. 2d 124
(2013) (emphasis in original). In CellzDirect, however, “the
inventors developed an innovative method of manipulating
hepatocytes, a particular kind of liver cell which, prior
to this invention, had been very difficult to preserve for

59a
Appendix D
future use ” 827 F.3d at 1049. Second, “[although the
claims in Ariosa were also written as process claims, the
court concluded that they were ‘directed to’ the patentineligible cffDNA itself.” 788 F.3d at 1376.
Defendants pay mere lip service to these principles.
Here, as in CellzDirect, the claims are “directed to” a
superior method of producing a certain end product—
in this case, efficiently creating oxidized CoQ10 on an
industrial scale—rather than to the inherent properties
of certain biological materials. That the asserted claims
rely on the ability of certain microorganisms to produce
reduced CoQ10 at a ratio greater than 70 mole % among
the entire coenzymes Q10 under standard culturing
conditions does not indicate the claims are “directed to”
this phenomenon. “Rather, the claims of the ‘[340] patent
are directed to a new and useful [industrial process] for
[manufacturing oxidized CoQ 0].” CellzDirect, 827 F.3d
at 1048. Indeed, Kaneka has identified language in the
- specification of the ‘340 Patent indicating the claimed
invention provides several advances over prior art
techniques for creating oxidized CoQ10 on an industrial
scale:
According to the processes of the present
invention, reduced coenzyme Q10 can be
produced cheaply on the industrial scale by
considerably simple steps comprising culturing
microorganisms and recovering reduced
coenzyme Q10. In addition, oxidized coenzyme
Q10 can also be produced by simple processes.
Moreover, these coenzymes Q10 produced by

60a
Appendix D
microorganisms basically do not contain (Z)isomers thereof, and (all-E) isomers thereof can
be obtained, which are same as those contained
in meat, fish, etc.
(‘340 Patent col. 4,11. 28-36 [emphasis added].)
In light of the above, the asserted claims are
readily distinguishable from those at issue in Genetic
Technologies, Ariosa, and In re BRCA. The claims in
the first two cases recited methods for detecting coding
regions of DNA and cffDNA, respectively, based on these
regions’ relationships to non-coding regions. Genetic
Techs., 818 F.3d at 1369, 1373-74; Ariosa, 788 F.3d at
1373-74, cert, denied, 136 S. Ct. 2511,195 L. Ed. 2d 841
(2016). The existence and location of DNA or cffDNA
is a natural phenomenon, and identifying the presence
of certain regions based on the location of non-coding
regions is tantamount to claiming the natural phenomenon
. itself. See Ariosa, 788 F.3d at 1376 (holding that, because
the method “starts with cffDNA taken from a sample of
maternal plasma or serum—a naturally occurring noncellular DNA that circulates freely in the blood stream of
a pregnant woman” and “ends with paternally inherited
cffDNA, which is also a natural phenomenon [the] method
therefore begins and ends with a natural phenomenon”
and “the claims are directed to matter that is naturally
occurring”). Here, by contrast, the claims call for culturing
certain microorganisms on an industrial level in order to
obtain reduced CoQ10 above a certain ratio, disrupting the
microbial cells, and then oxidizing the reduced CoQ10 and
extracting the resulting oxidized CoQ10 in a sealed tank.
(See generally ‘340 Patent.) The cases are not analogous.

61a
Appendix D
In re BRCA is similarly inapposite. In that case, the
claims recited methods for screening human germline for
an altered BRCA1 gene by comparing the target DNA
sequence with a wild-type sequence. 774 F.3d at 761-62.
Comparing two sequences in order to detect alterations,
however, is a patent-ineligible “abstract mental process.”
Id. at 763. Thus, although the claims in this case also
employed method steps, the end result of the process was
a patent-ineligible concept.
Defendants decry the lack of a yield requirement in
the oxidation step, arguing that without such a limitation,
the oxidizing, extracting, and optional disrupting steps
“simply are not required to actually make a particular
amount of oxidized CoQ10 from the starting ratio of
reduced CoQ10.” (Kaneka Opp’n 16.) Defendants further
argue that “[t]he combination of steps cannot help given
the Federal Circuit’s construction” because “[s]ince the
70 mole % reduced ratio need not be maintained and the
yield of oxidized [CoQJ is not limited, the mole % reduced
can be either above or below 70 mole % before or after
extraction and before or after oxidation.” (Kaneka Opp’n
17.) Defendants cite no facts or legal authority in support of
either argument. Moreover, the intrinsic record suggests
there are benefits associated with using reduced CoQ10
created by microorganisms at a ratio of at least 70% to
form oxidized CoQ10 on an industrial scale, including the
elimination of certain problematic isomers and a higher
yield of oxidized CoQ10 in a simple, safe, and cost-effective
manner. {See ‘340 Patent col. 2,11.28-37; col. 3., 11.33-46;
col. 4,11.28-36.)

62a
Appendix D
For the foregoing reasons, the Court concludes that
the asserted claims are not “directed to” the natural
phenomenon that certain microorganisms have the natural
ability to produce at least 70 mole % reduced CoQ10
under standardized culturing conditions, and GRANTS
Kaneka’s Motion for Summary Judgment on this issue.
2.

Step 2: Whether the Asserted Claims
Contain an “Inventive Concept”

Even if the Court were to conclude that the asserted
claims are “directed to” the natural phenomenon that
certain microorganisms have the natural ability to produce
at least 70 mole % reduced CoQ10 under standardized
culturing conditions, it would nevertheless conclude
that the remaining elements, viewed in isolation and in
combination with the other non-patent-ineligible elements,
are sufficient to ‘“transform the nature of the claim into
a patent-eligible application.” Alice, 134 S. Ct. at 2355
(quoting Mayo, 132 S. Ct. at 1297). Step two of the Section
101 inquiry requires searching for an “inventive concept
to take the claim into the realm of patent-eligibility.” In
re BRCA, 774 F.3d at 764 (citing Alice, 134 S. Ct. at 2355).
Such an “inventive concept” is present here. As a
starting point, as discussed above, the asserted claims
require much more than identifying microorganisms
capable of culturing reduced CoQ10 at a ratio of at least
70 mole % in a particular medium. In addition to this
step, an artisan must actively oxidize the reduced CoQ10
to oxidized CoQ10 and extract the oxidized CoQ10 using
an organic solvent in a sealed tank, and may optionally

63a
Appendix D
disrupt the microbial cells to obtain the reduced CoQ10.
(See generally ‘340 Patent.) Although each of these steps
might have been known to skilled artisans, Kaneka
points to evidence indicating a process of culturing
microorganisms to produce greater than 70 mole %
reduced CoQ10 and then actively oxidizing the CoQ10 was
far from “routine” or “conventional.” Indeed, the PTO
clarified during reexamination of the claims of the ‘340
Patent that:
While the culturing conditions and steps for
isolating coenzyme Q10 from microbial culture
may have been conventional and well-known in
the art, the choice of specific microorganisms
having the claimed properties of reduced
coenzyme Q10 was not. Particularly, as the
claims as a whole are drawn to include steps
for the production of oxidized coenzyme Q10
as a final product, there was no motivation
to choose for the initial steps in the culturing
processes microorganisms that naturally
contain “reduced coenzyme Q10 at a ratio of not
less than 70 mole % among the entire coenzyme
Qio”

(Bowick Opp’n Deck, Ex. 9 [emphasis added].) Thus,
according to the examiner, it took some inventiveness on
the part of the applicants to use reduced CoQ10 at a ratio of
at least 70 mole % as a starting product for the industrial
production of oxidized CoQ10. Defendants have not pointed
to any evidence indicating that creating oxidized CoQ10
on an industrial scale by starting with reduced CoQ10 of
a certain ratio was not “inventive.”

64a
Appendix D
Thus, even if the asserted claims were “directed to”
the natural phenomenon that certain microorganisms have
the natural ability to produce at least 70 mole % reduced
CoQ10 under standardized culturing conditions, the Court
would nevertheless conclude that the claims contain an
inventive concept that brings the claims into the realm of
patent-eligibility. Alice, 134 S. Ct. at 2355.
C. Whether a Genuine Dispute Exists Regarding
Anticipation by Folkers and the Pre-2002
Process
1.

The Parties’ Arguments

Kaneka next seeks summary judgment that the
asserted claims are not anticipated under 35 U.S.C. Section
102. According to Kaneka, although Defendants asserted
Kaneka’s Pre-2002 Process as the sole anticipatory
reference in their Final Amended Invalidity Contentions,
they nevertheless added a second anticipatory reference—
U.S. Patent No. 3,066,080 to Folkers et al. {“Folkers”)—in
the expert report and testimony of Dr. Spormann. {See
Kaneka Mem. 3.) Kaneka first argues that any reliance
on Folkers as an anticipatory reference is improper. {See
Kaneka Mem. 3.) Notwithstanding whether Folkers is
a proper reference, Kaneka further contends that Dr.
Spormann has admitted that neither reference contains
an “active oxidation step.” (Kaneka Mem. 4-7.)
Defendants respond by arguing that they, through the
opinions of Dr. Spormann and through other materials,
have provided prima facie evidence that both Folkers

65a
Appendix D
and the Pre-2002 Process satisfy the “active” oxidation
limitation as construed by the Federal Circuit. (Kaneka
Opp’n 2.)
2.

Analysis

“Whether a patent is anticipated under section 102(b)
is a question of fact.” Schumer v. Lab. Computer Sys.,
Inc., 308 F.3d 1304, 1315 (Fed. Cir. 2002) (citing Apple
Computer, Inc. v. Articulate Sys., Inc., 234 F.3d 14, 20
(Fed. Cir. 2000)). “On summary judgment, all justifiable
inferences are made in favor of the nonmovant, here
[Defendants].” Id. (citing Liberty Lobby, 477 U.S. at 255).
Each of the asserted claims requires “oxidizing”
reduced CoQ10 “to oxidized coenzyme Q10,” although the
claims differ with respect to whether such oxidation
begins before or after the “extraction” step. (See generally
‘340 Patent.) In its Opinion, the Federal Circuit concluded
that although “oxidation requires an active step,” it “does
not require the use of an oxidizing agent.” (Opinion
1305-06.) The Federal Circuit also required that “at
least some action resulting in oxidation must be applied
to the disruption step in claim 22, and the product of the
extraction step in claim 33.” (Opinion 1306.) In addition,
the Federal Circuit “disagreed] that the claimed order
excludes passive oxidation during other process steps” and
further “disagreed]... that the claimed order requires
that each step occur independently or separately.” (Id.)
The Federal Circuit summarized its construction as
follows:

66a
Appendix D
[T]he oxidation step requires some action
that results in oxidation but does not require
oxidation of “all or substantially all” of the
coenzyme Q10. Because the oxidation step
indicates that oxidation is carried out on the
product from the previous disruption step in
claim 22, some action resulting in oxidation
must occur after some product from the
disruption step forms and before the extraction
step in claim 22 begins. Similarly, some action
resulting in oxidation must occur after at least
some reduced coenzyme Q10 has been extracted
in claim 33. Because the claims read on a
continuous process, a process step does not
need to be complete before another step begins.
Thus, it is not required that any one step be
carried out separately or independently of any
other step.
(Opinion 1307.)
According to Kaneka’s Final Infringement
Contentions, two actions on the part of Defendants
constitute the “active step” required for oxidation. First,
there is “washing” and “drying” the biomass of reduced
CoQ10. (See Kaneka’s FICs for Shenzhou at 21-22, ECF
No. 518-1; Kaneka’s FICs for XKGC at 20-22, ECF No.
518-2.) Second, there is “air drying.” (Kaneka’s FICs
for Shenzhou at 24-26; Kaneka’s FICs for XKGC at 2226.) Defendants nevertheless contend that Kaneka has
identified a third alleged “active” oxidation step—acidheat treatment—although the Court cannot find support

67a
Appendix D
for this argument. {See Kaneka Opp’n 2-3.) Defendants
and their expert, Dr. Spormann, “dispute that any of these
three steps satisfies the ‘active’ oxidation limitation of
the ‘340 Patent,” but argue that “to the extent Kaneka’s
contentions are adopted, Folkers and [the Pre-2002
Process] meet the ‘active’ oxidation limitation of Claims
22 and 33 of the ‘340 Patent.” (Kaneka Opp’n 3.)
As a threshold matter, the Court agrees with Kaneka
that Defendants should be precluded from relying on
Folkers as an anticipatory reference, as this reference
was not properly included in Defendants’ Final Invalidity
Contentions. Kaneka submits that “Defendants’ Final
Amended Invalidity Contentions (10-03-2016) only
asserted Kaneka’s pre-2002 Process as an anticipatory
reference under 35 U.S.C. § 102[,]” providing a copy of
these contentions as evidence. (See PL Kaneka Corp.’s
Statement of Uncontroverted Facts and Conclusions of
Law in Supp. Kaneka Mem. (“Kaneka’s Facts”) II10, ECF
No. 556-2.) In response, Defendants do not dispute that
Folkers was not included as an anticipatory reference in
their Final Amended Invalidity Contentions, but instead
submit that they stated in these contentions that they “will
revise their contentions concerning the invalidity of the
claims of the Asserted Patent as appropriate depending
upon ... positions that Kaneka or its expert witnesses)
may take concerning claim interpretation, infringement,
and/or invalidity issues.” (Defs.’ Response 1110.) The Court
made clear in its September 13, 2016 Order Granting in
Part and Denying in Part Plaintiff Kaneka Corporation’s
Motion for Leave to Amend Its Final Infringement
Contentions that it would hold both sides to the theories

68a
Appendix D
provided in their final infringement and invalidity
contentions. (See Order Granting in Part & Den. in Part
Kaneka’s Mot. For Leave to Amend Its FICs, ECF No.
513.) Defendants have not demonstrated “good cause”
for belatedly shoehorning Folkers into Dr. Spormann’s
expert report. As such, the Court GRANTS IN PART
Kaneka’s Motion and PRECLUDES Defendants from
arguing that Folkers anticipates any of the asserted claims
under 35 U.S.C. Section 102. SeeMyMedicalRecords, Inc.
v. Walgreen Co., No. 2:13-cv-00631-ODW(SHx), 2013 U.S.
Dist. LEXIS 179945,2013 WL 6834639 (C.D. Cal. Dec. 23,
2013) (striking supplemental invalidity contentions that
were both untimely and improperly amended without a
court order and denying leave to amend for lack of good
cause).
Turning to the second anticipatory reference, the
Court has reviewed Dr. Spormann’s expert report
on invalidity (“Spormann Invalidity Report”) and his
December 2, 2016 deposition transcript, and finds there
to be a genuine dispute as to whether Kaneka’s Pre-2002
Process disclose an “active oxidation” step. Because the
determination whether a particular process meets the
“active oxidation” limitation is a question of fact, the Court
DENIES Kaneka’s Motion for Summary Judgment on the
issue of whether the Pre-2002 Process anticipates any of
the asserted claims.
First, the portions of Dr. Spormann’s deposition
testimony Kaneka cites in its moving papers do little more
than reveal the tension between Dr. Spormann’s views
regarding whether the three types of “active” oxidation

69a
Appendix D
(apparently) advanced by Kaneka meet the Federal
Circuit’s construction of the oxidizing limitation and his
interpretation of Kaneka’s three infringement theories.
In the Spormann Invalidity Report, Dr. Spormann
opines that, “applying the logic of Kaneka’s tutorial
and infringement contentions,” (1) Kaneka’s
used in the Pre-2002 Process meets the
oxidizing limitation found in claim 22; and (2) Kaneka’s
used the Pre-2002
Process meets the oxidizing limitation found in claim 33.
(See Deck Lei Mei in Supp. Kaneka Opp’n (“Mei Opp’n
Deck”), Ex. B at #x00B6;1I 123-24, ECF No. 600-3..)
Making all justifiable inferences in Defendants’ favor,
as the Court must when ruling on a motion for summary
judgment, the Court finds there to be a genuine dispute as
to whether the Pre-2002 Process anticipates the asserted
claims.4
The Court finds a second basis for denying Kaneka
summary judgment on the basis of anticipation: the
possibility that because the Pre-2002 Process calls for
the
it anticipates claim 33. Kaneka argues that
because Dr. Spormann admitted during his deposition
that the
in Kaneka’s
Pre-2002 Process occurred^^^^^^^^^^^HH^H
the addition of this compound cannot meet the “active
4. Kaneka argues in its reply that Dr. Spormann “cannot
raise an issue of fact simply by submitting an expert declaration
contradicting his sworn testimony.” (Kaneka Reply 3, ECF No. 610.)
The Court, however, reaches its conclusion without relying on Dr.
Spormann’s declaration.

70a
Appendix D
oxidation” limitation. (Kaneka Mem. 7.) Defendants point
to evidence indicating that during the “first extraction”
as part of Kaneka’s Pre-2002 Process, Kaneka

(See Mei Opp’n Deck, Ex. F at KAN790ITC003770974.)
In light of this evidence, the Court cannot say whether
some amount of “extraction” occurs prior to the
______________ such that the addition of this compound
meets the “oxidizing” limitation. (See Order 13 [holding
that “some action resulting in oxidation must occur after
at least some reduced coenzyme Q10 has been extracted in
claim 33”].) The Court must therefore DENY Defendants’
Motion for Summary Judgment on this issue.
D. Whether Manufacturing Defendants’ Processes
Infringe the Asserted Claims
The final issue the Court must determine is whether
a genuine dispute exists as to whether Manufacturing
Defendants’ processes infringe one or more of the
asserted claims. Defendants raise the following four
noninfringement arguments. First, they argue that
XKGC does not culture “reduced coenzyme Q10-producing
microorganisms,” but instead cultures photosynthetic
bacteria. (Defs.’ Mem. 25-29.) Second, they contend that
Kaneka has no evidence that XKGC’s processes meet
the 70 mole % limitation, either literally or under the
doctrine of equivalents. (Defs.’ Mem. 29-31.) Third, they
argue that XKGC does not use a “sealed tank,” and that
Kaneka essentially conceded that it would be impossible

71a
Appendix D
to have a “sealed tank” in an industrial scale process as
the term was construed by the Federal Circuit. (Defs.’
Mem. 31-34.) Finally, Defendants submit the processes do
not infringe claim 22, at the very least, because neither
process performs an “oxidizing” step. (Defs.’ Mem. 34-35.)
Kaneka responds to each of these arguments as
follows. First, Kaneka argues that Defendants should
be judicially estopped from attempting to narrow the
construction of the culturing step, and further argues
that Judge Pfaelzer previously rejected Defendants’ effort
to import an “end of fermentation” limitation into the
“culturing” step. (See Mem. of Ps & As in Opp’n Defs.’ Mot.
(“Defs.’ Opp’n”) 19-24, ECF No. 608.) Kaneka also argues
that the term “microorganisms” includes photosynthetic
bacteria. (Defs.’ Opp’n 24-31.) Kaneka next points to
evidence indicating XKGC’s old and new manufacturing
processes practice the 70 mole % limitation. (Defs.’ Opp’n
31-34.) Finally, Kaneka argues that because Defendants
have pointed to no “evidence” that XKGC does not
extract in “sealed tanks,” Kaneka’s affirmative evidence
is sufficient to defeat summary judgment on this issue,
both with respect to literal infringement and infringement
under the DOE. (Defs.’ Opp’n 34-38.)
1.

Issues Related to the “Culturing” Step

Defendants begin their noninfringement arguments
by raising several issues concerning the “culturing”
step recited in each of the asserted claims. The Court
addresses each of these arguments in turn.

72a
Appendix D
a.

Whether the “Culturing” Step
Requires “Pre-Screening” Testing

First, Defendants argue Kaneka has “no proof”
that XKGC cultures “reduced coenzyme Q10-producing
microorganisms” because Kaneka never cultured their
bacteria pursuant to the assay described between column
4, line 51 and column 5, line 43 of the ‘340 Patent. (Defs.’
Mem. 25.) Defendants contend that, as a corollary to the
above, since there is a separate requirement that the
microbial cells contain at least 70 mole % reduced CoQ10,
limiting the scope of this phrase “is needed to eliminate
redundancy and give meaning to the phrase.” (Defs.’
Mem. 25.) Defendants then point out that they do not use
any of the 63 strains of bacteria listed in Tables 1-3 of the
‘340 Patent. (Defs.’ Mem. 26.) Finally, Defendants note
that Kaneka’s own testing of certain strains of bacteria
demonstrates these bacteria produced microbial cells
with less than 70 mole % reduced CoQ10 when cultured
and measured pursuant to the assay described in the
‘340 Patent, and that Shenzhou’s own tests of its strain
of one of these bacteria yielded the same result. (Defs.’
Mem. 26-27.)
Kaneka does not dispute that it never cultured
Defendants’ photosynthetic bacteria pursuant to the assay
described between column 4, line 51 and column 5, line
43 of the ‘340 Patent. 0See Kaneka’s Response to Defs.’
Statement of Uncontroverted Facts and Conclusions of
Law (“Kaneka Resp.”) H 47, ECF No. 608-1.) Instead,
Kaneka argues that the claims do not require Defendants
to evaluate their bacteria according to this test-tube

73a
Appendix D
assay in order to practice the “culturing” step. Moreover,
Kaneka notes that until the deadline for disclosure of
Defendants’ expert reports on noninfringement, they
had never advocated limiting this claim element to the
laboratory-scale culturing experiment described between
column 4, line 51 and column 5, line 43 of the ‘340 Patent.
{See Defs.’ Opp’n 20.)
The Court agrees with Kaneka that taking this
laboratory-scale measurement is not required under the
Court’s construction of the “culturing” step, and further
agrees that Defendants are judicially estopped from
advancing such an argument. The Court has reviewed
Defendants’ Markman briefs, and notes that Defendants
themselves argued to Judge Pfaelzer that “the relevant
sampling point to determine whether the 70% limitation
is met is at the end of fermentation,” which is “consistent
with a natural reading of each independent claim, which
requires culturing microorganisms to obtain microbial
cells containing 70 mole % reduced coenzyme Q10.”
(Defs.’ Responsive Claim Construction Br. 22 [emphasis
in original], ECF No. 146.) Judge Pfaelzer adopted
Defendants’ proposed construction, requiring that the
assay described at column 5 between lines 8 and 43, rather
than the one described between column 4, line 51 and
column 5, line 43, be used to determine the ratio of reduced
CoQ10. (See Claim Construction Order 10-13.) Under the
Court’s construction of the term “culturing reduced
coenzyme Q10-producing microorganisms ... at a ratio
of not less than 70 mole % among the entire coenzymes
Q1?,” a manufacturer practices this limitation if, “at a time
prior to the extraction, oxidation, or disruption steps,”

74a
Appendix D
one performs the assay described at column 5 between
lines 8 and 43 and in Example 1 of the ‘340 Patent, and
the results show the microbial cells contain reduced CoQ10
at a ratio of not less than 70 mole % among the entire
coenzymes CoQ10. The manufacturers are not required to
use one of the microorganisms listed in Tables 1 through
3 of the ‘340 Patent. Nor are they required to perform
the laboratory-scale assay described between column 4,
line 51 and column 5, line 43 of the ‘340 Patent. The Court
DENIES Defendants’ Motion to the extent it centers on
these arguments.
b.

Whether the Term “Microorganisms”
Is Limited to “Non-Photosynthetic
Bacteria or Yeast”

Defendants next argue that because Kaneka
explicitly disclaimed the use of photosynthetic bacteria
during prosecution of the application leading to a parent
of the ‘340 Patent—Application No. 10/500,249 (the
“‘249 Application”)—and because it is undisputed that
XKGC uses the photosynthetic bacterium Rhodobacter
sphaeroides, its processes do not practice the “culturing”
step. (Defs.’ Mem. 27.) Kaneka responds by noting that
Judge Rodgers in the ITC Proceeding expressly rejected
Defendants’ effort to limit the “microorganism” term to
nonphotosynthetic microorganisms, and also by noting
that Defendants did not ask Judge Pfaelzer to so limit
this term during the 2013 Markman proceedings. (Defs.’
Opp’n 18-19.)
The Court agrees with Kaneka that the term
“microorganism ... 70 mole %” is not limited to

75a
Appendix D
nonphotosynthetie microorganisms. Defendants did
not ask for such a construction during the Markman
proceedings, and Judge Pfaelzer did not construe this
term as requiring that nonphotosynthetie bacteria or
yeast be used. (See Defs.’ Opening Claim Construction
Br., ECF No. 139, Defs.’ Responsive Claim Construction
Br.; Claim Construction Order 10-13.) Judicial estoppel
applies to patent claim construction, and Defendants are
prohibited from abandoning their earlier, successfully
advanced claim construction positions. See Biomedical .
Patent Mgmt. Corp. v. Cal. Dep’t ofHealth Servs., 505 F.3d
1328,1341 (Fed. Cir. 2007); Fitness Quest, Inc. v. Monti,
330 Fed. App’x 904, 914 (Fed. Cir. 2009); Mondis Tech.
Ltd. v. Chimei Innolux Corp., 822 F.Supp.2d 639, 650
n.14 (E.D. Tex. 2011) (holding that “InnoLux is judicially
estopped from agreeing to a claim construction position,
which this Court accepted in its claim construction order,
and then urging a different position merely weeks before
trial”). Additionally, this argument is waived because it
was not raised during the “claim construction phase” of
this case, nor was it raised on appeal. See Cent. Admixture
Pharmacy Servs., Inc. v. Advanced Cardiac Sols., P.C.,
482 F.3d 1347,1356 (Fed. Cir. 2007) (“The district court
found that ACS waived any argument with respect to this
term by failing to raise it during the claim construction
phase. We agree.”).
E ven if the Court were inclined to consider statements
made during prosecution of the ‘249 Application for
the purpose of construing the term “microorganism,”
it would not agree with Defendants that this term
should be limited to “nonphotosynthetie bacteria or

76a
Appendix D
yeast.” First, Defendants’ own expert, Dr. Jefferson C.
Lievense, testified that “because there is one example of
a photosynthetic bacterium” in the specification of the
‘340 Patent, a person of ordinary skill in the art, when
reviewing the ‘340 Patent, would not limit the term
“microorganism” to nonphotosynthetic bacteria. (Bowick
Opp’n Deck, Ex. 4 at 53:10-15.) The specification “is always
highly relevant to the claim construction analysis. Usually,
it is dispositive; it is the single best guide to the meaning
of a disputed term.” Phillips v. AWH Corp., 415 F.3d
1303, 1315 (Fed. Cir. 2005) (quoting Vitronics Corp. v.
Conceptronic, Inc., 90 F.3d 1576, 1582 (Fed. Cir. 1996)).
Moreover, Defendants have not shown that the proposed
amendment to the abandoned ‘249 Parent Application,
attached as Exhibit C to the Mei Opening Declaration, was
even considered by the examiner, and there is thus little
support for importing this limitation from the prosecution
history into the claims, see id. at 1317 (“Yet because the
prosecution history represents an ongoing negotiation
between the PTO and the applicant, rather than the final
product of that negotiation, it often lacks the clarity of the
specification and thus is less useful for claim construction
purposes”).
The Court DENIES Defendants’ Motion to the extent
Defendants argue their processes cannot infringe because
they utilize photosynthetic bacteria.

77a
Appendix D
c.

Whether Kaneka Has Sufficient
Evidence that XKGC’s Process Meets
the 70 Mole % Limitation

Finally, Defendants argue summary judgment
must be entered in XKGC’s favor because there is no
genuine dispute that XKGC’s old and new manufacturing
processes do not produce reduced CoQ 10 at a ratio of not
less than 70 mole % at the end of the fermentation step.
(Defs.’ Mem. 29.) In support of this argument, Defendants
contend that a person of ordinary skill in the art “would
understand that the appropriate point in the process from
which to take a sample for testing the ration of reduced
C°Q]? among the entire CoQ10s in the obtained microbial
cells is the fermentation tank at or close to the end of the
‘culturing’ (i.e. fermentation) step.” (Defs.’ Mem. 29.) In
further support of this argument, Defendants point to
(1) the testimony of one of Kaneka’s experts during the
ITC Proceeding; and (2) Judge Rodgers’ finding during
the ITC Proceeding that the correct “sampling point to
determine whether or not the 70 mole % reduced CoQ10
ratio limitation is satisfied is at the end of culturing, which
is the end of fermentation.”6 (Defs.’ Mem. 29.)
Kaneka responds that Judge Pfaelzer considered and
rejected Defendants’ argument that this determination
must be made at the “end of fermentation.” (Defs.’ Opp’n
5. The Court recognizes the dispositive nature of this
construction in light of the exclusion of Dr. Sherman’s test results.
Despite the persuasive logic of Judge Rodger’s conclusion, however,
the Court ultimately declines to disturb Judge Pfaelzer’s carefully
considered ruling.

78a
Appendix D
21-22.) It is true that, in their opening and responsive
Markman briefs, Defendants advanced this argument.
(See generally See Defs.’ Opening Claim Construction
Br., Defs.’ Responsive Claim Construction Br.) Judge
Pfaelzer recognized the parties’ respective positions,
noting that “[t]he primary disagreement between the
parties appears to be over the [1] timing and [2] method
for determining the mole percent of reduced CoQ10.”
(Claim Construction Order 11.) Judge Pfaelzer disagreed
with Defendants’ position, and concluded that “[s]ince the
steps must be performed in order, and the other steps of
the claim affect the mole percent of reduced CoQ10, the
mole percent of reduced CoQ10 must be determined at a
time prior to the execution of any of the subsequent steps
of the claims.” (Claim Construction Order 12 [emphasis
added].) Both parties’ experts agree that microorganisms
surrounded by nutrients do not stop metabolizing simply
because one “step” of the manufacturing process is
determined to be complete and a second “step” is said
to begin. What matters is whether the microorganisms
continue to metabolize. Indeed, the specification of the
‘340 Patent implicitly acknowledges this reality, stating
“it is preferable to supply the .. . carbon sources to the
culture medium separately from other components.” (‘340
Patent col. 8,11. 51-53.)
The Court first considers whether a genuine dispute
exists as to whether XKGC’s old manufacturing process
practiced the 70 mole % limitation. Kaneka has introduced
evidence that two sets of samples collected in February
and March of 2012 by Alliance Technologies—both of
which were “flash frozen in liquid nitrogen” and the

79a
Appendix D
latter of which were stored on dry ice—demonstrated
that XKGC’s old plant cultured reduced CoQ10-producing
microorganisms such that more than 70 mole % of the
entire CoQ10s were reduced after assaying. (See Bowick
Opp’n Decl., Ex. 30 at 15, 18, 20, 28 [showing results of
“82.1-87.9 mole %” and between 73.5 and 74.7 mole %];
Ex. 12 at 125:14-16,126:11-128:10,141:15-142:13,145:5-11,
146:12-16,152:14-153:13.) Again, because Judge Pfaelzer’s
construction of the 70 mole % term does not require
that testing be performed at the “end of fermentation,”
these samples, which were taken hours before the “end
of fermentation,” are seemingly sufficient to create a
genuine dispute regarding whether XKGC’s old process
practiced the 70 mole % limitation. Moreover, disputes
regarding the method of storage between collection and
sampling must be resolved by the trier of fact, as the
Court in ruling on summary judgment motions must make
all reasonable inferences in the light most favorable to
Kaneka, the nonmovant. The Court therefore concludes
that a genuine issue of fact exists regarding whether
XKGC’s old manufacturing process practiced the 70
mole % limitation, and DENIES Defendants’ Motion for
Summary Judgment on this ground.
The Court reaches a different conclusion, however,
with respect to XKGC’s new manufacturing process.
The only pieces of evidence Kaneka cites in support of
its contention that XKGC’s new process practices the 70
mole % limitation are the results of two tests conducted
by PharmaForensics Labs on July 18, 2016 and July 20,
2016, respectively, that apparently resulted in ratios of
reduced CoQ10 of 79.6% and 78.9%, respectively. (See

80a
Appendix D
Bowick Opp’n Deck, Ex. 11116; Ex. 28 at KAN-CD-CAL
23689,23692.) In its February 22,2017 Order, the Court
reviewed the methods used to conduct these tests and
Dr. Sherman’s opinions and testimony regarding these
tests, and found the test results and Dr. Sherman’s
associated testimony to be inadmissible under Rule 702
of the Federal Rules of Evidence. Daubert, 509 U.S. at
590. Following this ruling, the Court asked the parties
to file supplemental briefing regarding the impact of the
Court’s February 22, 2017 Order on Defendants’ motion
for summary judgment on non-infringement with respect
to the “70 mole %” limitation. (Minute Order, ECF No.
766.) Kaneka’s supplemental brief did not address this
question, but instead noted the tentative nature of motions
in limine and argued for the Court to reconsider its ruling.
(P’s Supplemental Brief, ECF No. 770-1.) In support
of its request, Kaneka provided three peer-reviewed
articles discussing organic solvent toxicity and a new
study, conducted by Kaneka, purporting to examine the
toxicity of n-hexane on Rhodobacter sphaeroides (“R.
Sphaeroides”). (See generally, Declaration of David
Sherman, PhD ISO Kaneka’s Suppl. Brief in Opposition
to Defendants’ Motion for Summary Judgment (“Sherman
Deck ISO Suppl. Brief”) Exhs. A-E, ECF No. 770-2-6.)
The journal articles proffered by Kaneka are largely
unhelpful because none discuss, or even mention, the
relevant bacterium—Rhodobacter sphaeroides. Kaneka
asks the Court to conclude from this that R. sphaeroides
has not been identified as an organic-solvent-resistant
bacteria, noting that “nothing in the scientific literature
suggests that Rodobacter spheroides can resist n-hexane

81a
Appendix D
in small amounts, let along the very large amounts used by
Dr. Sherman.” (P’s Suppl. Brief, fn. 4.) Nowhere, however,
do these articles claim to present an exhaustive list of all
such “extremophile” bacteria; on the contrary, they openly
acknowledge that “fresh habitats need to be explored to
isolate other species displaying such tolerance.” (Sherman
Deck ISO Suppl. Brief, Exh. A at 267.) More importantly,
while the articles identify the partition coefficient (“Log
Pow”) as a useful measure of solvent toxicity, none address
the rate at which bacteria are disabled once they are
exposed to toxic solvents and therefore do not establish
that exposure to a mixture of n-hexane and isopropanol
“immediately kills the microorganisms upon contact”
such that refrigeration would be “unnecessary.” (Cf
Decl. Robert M. Bowick in Opp’n Defs.’ Mot. For Summ.
J., Ex. 2 (“Sherman Infringement Report”) 11122, ECF
No. 605-5.) In essence, Kaneka’s articles only establish
that: (1) some bacteria are resistant to organic solvents,
(2) some bacteria are not resistant to organic solvents,
and (3) organic solvents vary in their degree of toxicity.
None of this information serves to validate Dr. Sherman’s
decision to deviate from his own protocol.
Presumably seeking to rectify the lack of information
specific to R. sphaeroides, Kaneka also offers a new
study—performed August 29-September 5, 2017—the
stated purpose of which is to “[a]ssess the ability of
R. sphaeroides culture to maintain viability following
exposure to organic solvents.” (Sherman Deck ISO Suppl.
Brief, Exh. E at 2.) The study introduced a mixture of
n-hexane and 2-propanol to a sample of R. sphaeroides
and, after a set period of time, assayed the bacteria-

82a
Appendix D
solvent mixture, placed it on an agar plate and incubated it
for three days. At the end of the three-day period, none of
the bacteria were living, even those only directly exposed
to the organic solvent for fifteen (15) seconds. (Sherman
Decl. ISO Suppl. Brief, Exh. E at 4-5.)
Kaneka’s study is defective both because the
experimental design is flawed and because it does not
purport to test the relevant question. The experiment
involves withdrawing the bacteria-solvent mixture after
a set period of time and depositing this mixture onto an
agar plate. Simply withdrawing the assay from the larger
mixture does not remove the bacteria from the solvent
because the assay itself contains both. The solvent remains
in contact with the bacteria until it evaporates from the
plate—a time period not measured by the experiment.
Thus, the bacteria was not only exposed to organic solvent
for 15 seconds, it was also exposed to organic solvent for
the time necessary to transfer the assay to the agar gel
and the time required for the solvent to fully evaporate.
This problem is further exacerbated by the fact that the
agar plates are chilled to 4 degrees centigrade, slowing
the evaporation rate. (Sherman Decl. ISO Suppl. Brief,
Exh. E at 3.) The procedure also fails to address whether
the agar plates are sealed or left open when placed into
the incubator. If the plates are sealed—as is customary—
the bacteria could have been exposed to organic solvent
vapor for all three days of incubation. The experiment’s
second flaw is its failure to directly test the relevant
question: whether exposure to the mixture of n-hexane
and isopropanol “immediately” kills R. sphaeroides such
that the deviation from Dr. Sherman’s proposed testing

83a
Appendix D
procedure is immaterial. While it does seek to test the
lifespan of these microorganisms, it does not meaningfully
compare this process to the PharmaForensics protocol.
As Plaintiff has failed to cure the defect identified
in Dr. Sherman’s report in the original Daubert Order,
the Court DENIES Kaneka’s request to reconsider that
finding. Kaneka and its witnesses are precluded from
testifying and offering opinions regarding the results
of their testing of the 70 mole % limitation under Dr.
Sherman’s July 2016 protocol. Accordingly, because
Kaneka has introduced no admissible evidence showing
there is a genuine dispute as to whether XKGC’s new
manufacturing process practices the 70 mole % limitation,
the Court GRANTS Defendants’ Motion for Summary
Judgment that XKGC’s new manufacturing process does
not infringe the asserted claims.
2.

Whether Defendants Use a “Sealed Tank”

Defendants next challenge whether Manufacturing
Defendants’ processes use a “sealed tank,” arguing that
Kaneka “essentially conceded” in its Markman and earlier
summary judgment papers that it would be impossible to
have a “sealed tank” in an industrial-scale process as the
term has been construed by the Federal Circuit. (Defs.’
Mem. 31-32.) Defendants note that although Kaneka
sought to construe the term “sealed tank” to mean “a
tank that substantially prevents direct exposure of its
contents to the atmosphere,” the Federal Circuit rejected
this proposed construction, instead construing the term
as “a tank that prevents exposure of the tank’s contents

84a
Appendix D
to the atmosphere.” (Defs.’ Mem. 32.) Defendants do not
cite any evidence in support of this argument, and do
not reference the “relief valve” discussed at length in
their initial motion for summary judgment filed after the
Federal Circuit issued its mandate. (Cf. Mot. for Summ.
J. as to Invalidity and Noninfringement, ECF No. 355.)
Kaneka responds that Dr. Spormann failed to apply
the Federal Circuit’s construction in providing his non­
infringement opinions, creating his own interpretation
of “sealed tank” by adding the qualifier “all the time.”
(Bowick Opp’n Deck, Ex. 12 at 161:21-162:22, 214:11215:1.) Kaneka next points out that Shenzhou employees
testified that Shenzhou’s old and new extraction processes,
which are described in Standard Operating Procedures
(“SOPs”), are performed in tanks that are sealed. (Defs.’
Opp’n 35.) Kaneka submits that this evidence, coupled
with the opinions and testimony of its expert, is sufficient
to defeat summary judgment.
a.

The Court’s Construction of “Sealed
Tank” and Plaintiff’s Motion for
Reconsideration

In the Judge Pfaelzer’s original claim construction
order, the term “sealed tank” was construed to mean
“a tank that is closed to prevent the entry or exit of
materials.” (emphasis added) (Claim Construction
Order, 9.) On appeal, the Federal Circuit reversed this
construction, finding that it improperly excluded one of
the ‘340 Patent’s preferred embodiments. (Kaneka Corp.
v. Xiamen Kingdomway Group Co., 790 F.3d 1298,1304

85a
Appendix D
(Fed. Cir. 2015). Instead, the Circuit determined that a
“‘sealed tank’ should be sealed to the atmosphere, but
not necessarily to other materials, such as solvents” and,
based on this understanding, held that “the term ‘sealed
tank,” means ‘a tank that prevents exposure of the tank’s
contents to the atmosphere.’” Id. at 1304-5.
In its February 22,2017 Order addressing arguments
raised in the parties’ Daubert motions, the Court referred
to a portion of the Federal Circuit’s ruling which held:
In the industrial scale process of Example 8, a
solution of disrupted (ruptured) cells containing
reduced coenzyme Q10 is “sealed with nitrogen
gas,” i.e., sealed under an inert gas atmosphere
such that solution contents are not exposed to
the atmosphere, and continuously extracted
in a manner that allows solvent to flow into and
out of the extraction tanks depicted in Figure 1.
(Daubert Order, 11.) From this, the Court concluded
that “[t]he only tenable reading of this limitation is that
the tank must prevent exposure of its contents to the
atmosphere for the entire duration of the extraction
step, or else the contents of the tank could be exposed
to the atmosphere for at least a portion of the extraction
step.” (Daubert Order, 11.) Plaintiff now challenges this
conclusion as improperly adding an additional limitation
to the Federal Circuit’s existing construction of “sealed
tank.” (See generally, Motion for Reconsideration, ECF
No. 819-1.) Kaneka asserts that the additional language
“necessarily exclude[s] the preferred embodiment of

86a
Appendix D
Example 8 and Figure 1 of the ‘340 Patent.” (Declaration
of David Sherman PhD ISO Mot. for Reconsideration 1114,
ECF No. 819-2.)
The basis for Kaneka’s claim is that the industrial
tanks used for extraction must, at some point, be filled
with solvent, displacing any air contained within the
extraction tank. (Sherman Decl. ISO Reconsideration
1113.) If this air is not bled off during the filling process,
the tank would become pressurized with compressed air
and solvent vapor—an unworkable and highly dangerous
proposition. (Sherman Decl. ISO Reconsideration 11 11.)
The alternative solution of placing the tank under
complete vacuum during the filling process is a similarly
impractical, if not impossible, requirement. (Sherman
Decl. ISO Reconsideration 11 7.) Plaintiff is therefore
correct that requiring a hermetically-sealed tank during
the extraction process is inconsistent with the patent
specification as read by a person of ordinary skill in the
art. The Court’s February 22,2017 Order, however, makes
no such demand. While it does conclude that the tank must
be sealed during the entirety of the extraction process, it
requires only that the contents of the tank not be exposed
to the atmosphere—not that the atmosphere be protected
from the contents of the tank. (Daubert Order, 11.) Thus,
the use of a seal pot or some other one-way check valve
that allows gas to escape the container while the tank is
being filled, but does not allow atmospheric oxygen to
enter, is sufficient to render a tank “sealed” for purposes
of the ‘340 Patent. This understanding is fully consistent
with the patent specification which discloses that, at
least with respect to reduced coenzyme Q10, the primary

87a
Appendix D
concern during the extraction step is preventing oxidation.
(‘340 Patent col. 16:16-54.) Exposing the tank’s contents
to the atmosphere at any point during the extraction
process would introduce additional oxygen into the tank
and thereby frustrate this goal. Because the Court’s
construction permits venting of air during the filling
process, it does not conflict with Example 8 or Figure 1
of the ‘340 Patent.
The Court further notes that the case law relied
upon by Plaintiff in its Motion for Reconsideration is
inapposite. Kaneka cites a related case appealed from
the Southern District of Texas in which the Federal
Circuit rejected the lower court’s construction of the
term “oxidation .” Zhejiang Medicine Co., Ltd. v. Kaneka
Corp., 676 Fed. Appx. 962,964 (Fed. Cir. 2017). Contrary
to Kaneka’s assertion, however, the rejection was not
because the district court further clarified the Circuit’s
previous construction, but rather because the lower court’s
construction lacked precision. Id. In point of fact, by
arguing that a “sealed tank” may sometimes be open and
sometimes be closed, Kaneka seeks to introduce exactly
the type of ambiguity and imprecision that the Federal
Circuit sought to avoid. If a tank that is open for 5% of
the extraction process is “sealed,” it begs the question
whether the same logic applies to a tank that is open 25%
of the time, or 95% of the time. Moreover, Plaintiff has
already litigated this issue before the Federal Circuit
in its initial appeal when it sought to construe “sealed
tank” as “a tank that substantially prevents direct
exposure of its contents to the atmosphere.” (Brief for
Plaintiff-Appellant (“Kaneka App. Brief”) at 49, Kaneka

88a
Appendix D
Corp. v. Xiamen Kingdomway Group Co., 790 F.3d 1298
(Fed. Cir. 2015).) While the Circuit accepted some of
Kaneka’s proposed construction, it conspicuously chose
not to include “substantially” or any similarly equivocal
language. This Court follows the Federal Circuit’s lead
and declines to add such a limitation at this time.
Plaintiffs reliance on Bell Commc’ns Research, Inc. v.
Vitalink Commc’ns Corp. is similarly misplaced. 55 F.3d
615 (Fed. Cir. 1995). There, the Federal Circuit considered
an asserted claim requiring a data packet to travel along
a single, assigned network tree. Id. at 622. Because the
accused system consisted of packets capable of switching,
mid-course, from one tree to another, the district court
concluded that there was no literal infringement. Id. The
appellate court observed that “the record does not make
it clear that [defendant’s system never uses the claimed
method,” thereby implying that there may be situations in
which the packet does not, in fact, switch network trees and
therefore may literally infringe at least some of the time.
Id. Without making an ultimate determination on the issue
of infringement, the case was remanded with instructions
that “an accused product that sometimes, but not always,
embodies a claimed method nonetheless infringes.” Id.
Kaneka contends that this holding requires the Court to
consider a tank that, for some period of time, exposes its
contents to the atmosphere to nevertheless be a “sealed
tank.” (Mot. For Reconsideration, 8.) This argument,
however, appears to be based on a misunderstanding of
the biphasic nature of infringement analysis. Before a
court considers a defendant’s accused product, it must
first determine the proper scope of the asserted claim

89a
Appendix D
terms as presented in the patent and understood by a
person of ordinary skill in the art. Markman, 52 F.3d at
976. It is only once the claim scope is understood that a
court may determine if a defendant infringes those claims.
Id. Kaneka’s argument goes to the first of these stepsclaim interpretation—while the court in Bell Commc’ns
addressed the second. Had Kaneka shown, for example,
that Defendants sometimes perform their process with an
open tank and sometimes with a sealed tank, the principle
from Bell Commc’ns would apply. Here, however, Plaintiff
does not allege that Defendants’ process differs from run
to run, but rather asks the Court to alter its construction
of “sealed tank.”
For these reasons, the Court DENIES Kaneka’s
Motion for Reconsideration and continues to interpret
the term “sealed tank” as requiring the tank to prevent
exposure of its contents to the atmosphere for the entire
duration of the extraction step.
b.

Whether a Genuine Dispute Exists
as to Manufacturing Defendants’
Literal Usage of “Sealed Tanks”

Even with this understanding, the Court finds that
a genuine dispute exists as to whether the old and new
processes used by XKGC literally perform extraction
using “sealed tanks,” and accordingly DENIES summary
judgment in favor of Defendants on this issue. Kaneka’s
expert, Dr. Sherman, testified and opined that XKGC’s
new and old processes extract CoQ10 in a “sealed tank”
because although these processes include relief valves

90a
Appendix D
that can expose the tank’s contests to the atmosphere,
XKGC’s SOP, coupled with the purpose of the relief
valve—to prevent the build up of the solvent hexane,
which can create an explosion if too pressurized—reveal
that the valves “close to prevent any potential drawing
in of atmospheric air exposed to the hexane ..(Bowick
Opp’n Deck, Ex. 36 at 318:15-321:20; Ex. 2 at 161-190; Exs.
37-38; Ex. 41 at 586:4-22; Exs. 46-47.) Kaneka also points
to its Final Infringement Contentions, which detail why
XKGC’s new and old processes use “sealed tanks” relying
on their SOP and certain deposition testimony. (Kaneka’s
FICs for XKGC at 26-31.)
Defendants do not directly challenge Dr. Sherman’s
testimony or opinions, nor do they offer any affirmative
evidence of their own. Instead, they rely on a submission
by Kaneka in a 2013 brief opposing summary judgment
that a “sealed tank” in an industrial-scale process can
only be “substantially” sealed “because the absolute
nature of complete oxygen exclusion and/or absolute
retention of all organic solvent presents certain logistical
and system-based difficulties that operate contrary to
known realities inherent to any industrial scale production
process.” (Defs.’ Mem. 32; Defs.’ Reply 18, ECF No. 6111.) As a preliminary matter, the Ninth Circuit holds that
“statements of fact contained in a brief may be considered
admissions of the party in the discretion of the district
court.” Am. Title Ins. Co. v. Lacelaw Corp., 861 F.2d 224,
227 (9th Cir. 1988). Given this statement was made in the
context of Kaneka opposing summary judgment under
a since-reversed claim construction ruling, the Court
does not find the statement to be tantamount to a judicial

91a
Appendix D
admission that the extraction tanks are not “sealed,” as
the term has since been construed by the Federal Circuit.
Even if the Court were to treat this submission as a binding
admission, however, it would not conclude that Kaneka
has admitted Defendants’ processes do not extract in “a
tank that prevents exposure of the tank’s contents to the
atmosphere.” This opinion is limited to large industrial
tanks subjected to the continuous exchange of liquids and
gases. (See Mem. Ps. & As. in Opp’n to Mot. for Summ.
J. on the Issue of Non-Infringement 21, ECF No. 218.)
On the present record, the Court cannot say whether
Shenzhou or XKGC’s old or new processes use industrial
extraction tanks subjected to the continuous exchange of
liquids and gases.
b.

Whether a Genuine Dispute Exists as
to Manufacturing Defendants’ Usage
of “Sealed Tanks” under the DOE

Defendants next argue that Manufacturing
Defendants’ processes do not meet the “sealed tank”
limitation under the DOE, both because Dr. Sherman
did not address any alleged infringement under this
doctrine and because Kaneka is barred from asserting
infringement of this claim limitation under the doctrine
of prosecution history estoppel. (See Defs.’ Mem. 33.)
As a threshold matter, the Court granted Kaneka
leave to amend its Final Infringement Contentions to
include infringement of the “sealed tank” limitation
under the DOE. (See Order Granting in Part & Den. in
Part Pl.’s Mot. for Leave to Amend Its FICs, ECF No.

92a
Appendix D
513.) The Court therefore rejects Defendants’ challenge
on this ground.
The Court next addresses whether Kaneka is barred
from asserting infringement under the DOE because
of prosecution history estoppel. “Estoppel arises when
an amendment is made to secure the patent and the
amendment narrows the patent’s scope.” Festo VIII, 535
U.S. at 736. “A patentee who narrows a claim as a condition
for obtaining a patent disavows his claim to the broader
subject matter, whether the amendment was made to avoid
the prior art or to comply with § 112.” Id. at 737. In Festo,
the United States Supreme Court provided an overview
of the doctrine:
The doctrine of equivalents allows the patentee
to claim those insubstantial alterations that
were not captured in drafting the original
patent claim but which could be created through
trivial changes. When, however, the patentee
originally claimed the subject matter alleged
to infringe but then narrowed the claim in
response to a rejection, he may not argue
that the surrendered territory comprised
unforeseen subject matter that should be
deemed equivalent to the literal claims of
the issued patent. On the contrary, “[b]y the
amendment [the patentee] recognized and
emphasized the difference between the two
phrases[,] . . . and [t]he difference which [the
patentee] thus disclaimed must be regarded
as material.”

93a
Appendix D
Id. at 733-34. “Estoppel is a ‘rule of patent construction’
that ensures that claims are interpreted by reference to
those ‘that have been cancelled or rejected.’” Id. at 733
(quoting Schriber-Schroth Co. v. Cleveland Trust Co., 311
U.S. 211, 220-21, 61 S. Ct. 235, 85 L. Ed. 132,1941 Dec.
Comm’r Pat. 802 (1940)).
Defendants argue that, during prosecution of
the application leading to the ‘340 Patent (Appl. No.
11/981,181), after repeated rejections of its claims by the
PTO, Kaneka submitted an Amendment canceling old
claims and adding new ones. {See Defs.’ Mem. 33.) Among
these new claims were claims 131 and 142, which the
patentee claimed were not obvious in light of certain prior
art references because these references “fail[ ] to provide
any teaching or suggestion” of extraction by an organic
solvent “in a sealed tank.” {See Mei Opening Deck, Ex. K
at MGC00122101-MGC00122107.) These claims ultimately
issued as claims 22 and 33.
Kaneka does not cite to, much less grapple with,
the doctrine of prosecution history estoppel once in its
papers. {See generally Defs.’ Opp’n.) Instead, Kaneka cites
to cases discussing the role of the jury in determining
infringement under the DOE and the type of evidence
sufficient to .establish such infringement. {See Defs.’
Opp’n 38.) Moreover, the main authority cited by Kaneka
regarding the DOE, AquaTex Industries v. Techniche
Solutions, shows why Kaneka has failed to carry its
summary judgment burden with respect to the issue of
prosecution history estoppel:

94a
Appendix D
Under th[e] doctrine [of prosecution history
estoppel], the surrender of subject matter
during patent prosecution creates a presumption
that the patentee is precluded from recapturing
that subject matter through the doctrine of
equivalents; this presumption can be rebutted
by the patentee through a showing that an
amendment was unrelated to patentability.
479 F.3d 1320, 1325 (Fed. Cir. 2007). Kaneka has failed
to introduce any evidence or argument as to why the
addition of the term “in a sealed tank” during prosecution
was unrelated to patentability, particularly in light of
the patentee’s statements contained in the Amendment
distinguishing certain prior art references. As such,
the Court GRANTS summary judgment in favor of
Defendants thatXKGC’s manufacturing processes do not
practice the “sealed tank” limitation under the doctrine
of equivalents.
3.

Whether Defendants’ Processes Contain
an “ Active Oxidation” Step

Finally, Defendants argue that they do not infringe
claim 22 because Manufacturing Defendants’ processes
do not perform the “oxidizing” step. (Defs.’ Mem. 34.) In
particular, they contend that because Kaneka has not
presented “a baseline rate of passive oxidation to show that
the alleged pre-extraction ‘oxidizing step’ (i.e., washing
and drying steps) is active oxidation in [] XKGC’s process,”
summary judgment of noninfringement must be entered in
their favor. (Defs.’ Mem. 34.) Kaneka does not dispute that

95a
Appendix D
it does not have a “baseline rate of passive oxidation,” but
argues it nevertheless has sufficient evidence to withstand
summary judgment on this issue.
Since the filing of the parties’ cross-motions for
summary judgment, the Court of Appeals for the Federal
Circuit has issued an opinion regarding an appeal from the
Texas Litigation (the “ZMC Opinion”). (See Defs.’ Second
Notice of Supplemental Authority and Partial Withdrawal
of Summ. J. Mot. (“Notice”), Ex. A, ECF No. 636.) In
the ZMC Opinion, the Federal Circuit held, among other
things, that the construction of the oxidizing steps does not
require increased oxidation in excess of that which occurs
naturally from exposure to ambient air. (Notice, Ex. A at
6.) In light of the ZMC Opinion, Defendants “withdraw the
part of their Motion for Summary Judgment that is based
on Kaneka’s failure to present a baseline rate for passive
oxidation to prove infringement of claim 22.” (Notice 1.)
IV. RULING
For the foregoing reasons, the Court:
1.

DENIES both Kaneka’s and Defendants’ Motions
for Summary Judgment on the issue of whether
the asserted claims are indefinite under 35 U.S.C.
§112112;

2.

GRANTS Kaneka’s Motion for Summary
Judgment that the asserted claims are patenteligible under 35 U.S.C. § 101;

96a
Appendix D
3. GRANTS Kaneka’s Motion for Summary
Judgment that Folkers does not anticipate any
of the asserted claims under 35 U.S.C. Section
102;
4. DENIES Kaneka’s Motion for Summary
Judgment that Kaneka’s Pre-2002 Process do not
anticipate the asserted claims under 35 U.S.C. §
102;
5.

DENIES Defendants’ Motion for Summary
Judgment to the extent they seek summary
adjudication that XKGC’s old manufacturing
does not practice one or more aspects of the
“culturing” step recited in the asserted claim,
but GRANTS Defendants’ Summary Judgment
that XKGC’s new manufacturing process does
not practice the 70 mole % limitation;

6. DENIES Defendants’ Motion for Summary
Judgment that XKGC’s Defendants’ processes
do not literally extract CoQ10 in a “sealed tank,”
but GRANTS Defendants’ Motion for Summary
Judgment that XKGC’s processes do not extract
CoQ10 in a “sealed tank” under the doctrine of
equivalents; and
7.

DENIES Defendants’ Motion for Summary
Judgment that XKGC does not practice the
“oxidizing” limitation of claim 22.

97a
Appendix D
The Court is in receipt of Kaneka’s Notice of Proposed
Stipulation of Non-infringement based on the Court’s
Rulings (ECF No. 831) and Defendants’ Response (ECF
No. 833). Now that a decision has been rendered, the
parties shall advise the Court how they wish to proceed.
IT IS SO ORDERED.

